<html>
<title> - UNITED STATES POLICY AND STRATEGY IN EUROPE</title>
<body><pre>[Senate Hearing 115-200]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-200

                   UNITED STATES POLICY AND STRATEGY
                               IN EUROPE

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 21, 2017

                               __________

         Printed for the use of the Committee on Armed Services





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








        Available via the World Wide Web: http://www.fdsys.gov/
        
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-655 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        

                      COMMITTEE ON ARMED SERVICES

                    JOHN McCAIN, Arizona, Chairman
JAMES M. INHOFE, Oklahoma              JACK REED, Rhode Island
ROGER F. WICKER, Mississippi           BILL NELSON, Florida
DEB FISCHER, Nebraska                  CLAIRE McCASKILL, Missouri
TOM COTTON, Arkansas                   JEANNE SHAHEEN, New Hampshire
MIKE ROUNDS, South Dakota              KIRSTEN E. GILLIBRAND, New York
JONI ERNST, Iowa                       JOE DONNELLY, Indiana
THOM TILLIS, North Carolina            MAZIE K. HIRONO, Hawaii  
DAN SULLIVAN, Alaska                   TIM KAINE, Virginia
DAVID PERDUE, Georgia                  ANGUS S. KING, JR., Maine 
TED CRUZ, Texas                        MARTIN HEINRICH, New Mexico
LINDSEY GRAHAM, South Carolina         ELIZABETH WARREN, Massachusetts
BEN SASSE, Nebraska                    GARY C. PETERS, Michigan
LUTHER STRANGE, Alabama              
                                     
                  Christian D. Brose, Staff Director
             Elizabeth L. King, Minority Staff Director

                                  (ii)































  


                         C O N T E N T S

________________________________________________________________________

                             March 21, 2017

                                                                   Page

United States Policy and Strategy in Europe......................     1

Breedlove, General Philip M., USAF (Ret.), Distinguished              5
  Professor, Sam Nunn School of International Affairs, Georgia 
  Institute of Technology.
Burns, Ambassador William J., President, Carnegie Endowment for      10
  International Peace.
Vershbow, Ambassador Alexander R., Distinguished Fellow, Brent       21
  Scowcroft Center on International Security, Atlantic Council.

                                 (iii)

 
                   UNITED STATES POLICY AND STRATEGY
                               IN EUROPE

                              ----------                              


                        TUESDAY, MARCH 21, 2017

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34.m. in Room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman of the committee) presiding.
    Committee members present: Senators McCain, Wicker, 
Fischer, Cotton, Rounds, Ernst, Sullivan, Cruz, Strange, Reed, 
Nelson, McCaskill, Shaheen, Gillibrand, Donnelly, Kaine, King, 
Warren, and Peters.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Good morning. The Senate Armed Services 
Committee meets this morning to receive testimony on United 
States policy and strategy in Europe.
    I would like to welcome our distinguished witnesses this 
morning: General Philip Breedlove, who was relieved of his 
obligation to appear before this committee when he retired last 
year, yet has graciously agreed to submit himself before us 
once again. I have no doubt he will soon regret that decision 
and will wish for a speedy return to Georgia Tech where he is 
Distinguished Professor at the Sam Nunn School of International 
Affairs.
    We are also pleased to be joined by Ambassador William 
Burns, an old friend of this committee and of America, who is 
the President of the Carnegie Endowment for International 
Peace; and Ambassador Alexander Vershbow, who is a 
Distinguished Fellow at the Atlantic Council's Brent Scowcroft 
Center on International Security.
    All three of these gentlemen combined have many, many 
decades of service to this country and we are grateful they 
would come and join us this morning.
    Since the end of the Cold War, American policy and strategy 
in Europe have been guided by the idea that Russia was, or at 
least might become, a reliable security partner. To varying 
degrees, each of our last three Presidents pursued a 
partnership with Russia on these terms, and each time, high 
hopes ended in disappointment, not for lack of good faith or 
effort on the American side, but because of the simple fact 
that Vladimir Putin has no interest in such a partnership. He 
believes achieving his goal of restoring Russia as a great 
power means diminishing American power, as well as the values 
and institutions it sustains and defends.
    Unfortunately, we as a country were slow to recognize that 
fact. Russia invaded Georgia and Ukraine, annexed Crimea, 
repeatedly threatened our NATO [North Atlantic Treaty 
Organization] allies, violated the INF [Intermediate-Range 
Nuclear Forces Treaty] Treaty, rapidly modernized its military, 
executed a major military buildup along its western border, and 
interfered in American elections, all before policymakers on 
both sides of the aisle truly began to come to terms not only 
with the reality of Vladimir Putin's neo-imperial ambitions, 
but also with the heavy price we have paid for a policy General 
Breedlove once described as, quote, hugging the bear.
    Until the end of the Cold War, there were a quarter of a 
million United States forces stationed permanently in West 
Germany alone. Today we have just a quarter of that number on 
the entire European continent. This drastic reduction was not 
merely the product of a post-Cold War peace dividend. Indeed, 
as recently as the two years before Russia invaded Ukraine, the 
United States withdrew two brigade combat teams from Europe. As 
a result, while Russian tanks rolled into Crimea in 2014, the 
United States had zero tanks permanently stationed in Europe.
    Likewise, we let American intelligence on Russia's tactical 
and operational capabilities languish, weakening our ability to 
quickly detect Russia's large military movements and 
effectively attribute its, quote, hybrid warfare tactics. We 
unilaterally disengaged from the information fight, allowing 
Putin's propaganda machine and army of trolls and hackers to 
wage a war on truth with alarming success.
    The bottom line is that three years after the invasion of 
Ukraine and annexation of Crimea, the United States has yet to 
heed the wakeup call. We still have not adjusted to the scope, 
scale, and severity of the new strategic reality we face in 
Europe. We continue to lack coherent policy and strategy to 
deter conflict and prevent aggression in Europe while 
confronting a revisionist Russia that is hostile to our 
interests and our values.
    The good news is we have begun to fix the damage done by 
years of false assumptions and misguided policy with the 
European Deterrence Initiative. But that is just a first step. 
The new administration has an opportunity to turn the page and 
design a new policy and strategy in Europe backed by all 
elements of American power and decisive political will. Each of 
our witnesses has deep experience in the formulation and 
execution of national security strategy, and I hope they can 
begin to describe the basic pillars and underlying principles 
of such a policy and strategy.
    Some of the features of a new approach in Europe are 
already clear: enhancing forward presence of United States 
military forces; increasing investments in capabilities 
necessary to counter Russia's advanced anti-access, area denial 
threat; following through on modernization of our nuclear 
triad; devising gray zone strategies for competition below the 
threshold of major conflict in domains such as cyber and 
unconventional warfare; providing defensive lethal assistance 
to Ukraine; and working together with allies and partners to 
arm ourselves to resist Russia's war on truth, counter Russian 
disinformation, and strengthen the resiliency of our societies 
and institutions.
    What is also clear is that no United States policy or 
strategy in Europe can be successful without our NATO allies.
    As Chancellor Merkel reminded us years ago, the Freedom 
Bell hangs in Berlin. It was a gift from the American people, 
modeled after our own Liberty Bell. It rang on the day of 
German reunification. But it also rang after the September 11th 
attacks. Sixteen German citizens died when the towers fell that 
day. When our NATO allies invoked article 5 of the North 
Atlantic Treaty for the first time in history in response to 
those attacks, German troops went to fight side by side with 
American troops in Afghanistan. Fifty-four of them have given 
their lives, and nearly 1,000 are still serving there today. We 
must never forget or diminish the price our allies have paid in 
blood fighting alongside America.
    I thank our witnesses for their testimony this morning.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman, for 
holding this important hearing on the security environment in 
Europe.
    I also want to thank our distinguished panel for appearing 
before us this morning, and thank them for their extraordinary 
service to the Nation in many different capacities over many, 
many years. So we look forward to your testimony, gentlemen.
    This morning's hearing provides an opportunity for the 
committee to begin to examine in more detail the threat posed 
by Russia's malign activities aimed at undermining the United 
States-led international order, one where countries are 
sovereign and free to make their own choices about integrating 
economically and politically with the rest of Europe, rather 
than being coerced into a sphere of influence. Hopefully this 
morning we can also discuss what we need to do to respond to 
and defend against that Russian threat.
    This threat was brought especially close to home last year 
with Russia's interference in our own presidential elections. 
Countering Russia's malign activities is a matter of national 
security, and we have a responsibility to ensure that any 
examination of such activities by Congress, the intelligence 
community, or the executive branch is not politicized. Russia's 
attack on American democracy is just one part of a broader 
Kremlin-directed assault on the cohesion of the NATO alliance, 
the European Union, and other Western institutions and a 
rejection of the post-Cold War vision of an integrated and 
stable Europe. Our national security depends on our better 
understanding Putin's world view and Russia's strategic aims in 
its aggression toward the West. I am interested hearing our 
witnesses' views on these matters.
    President Putin has proven willing to use a broad range of 
military and non-military tools to advance what he sees as 
Russia's strategic interests. Militarily, Putin has used force 
and coercion to violate the sovereignty of Russia's neighbors 
and undermine their further integration into Europe. In the 
Republic of Georgia, the Russian military has occupied two 
separatist regions since 2008 and Moscow has recognized the 
regions' independence from Georgia, contrary to the 
international community's determination that these regions are 
sovereign Georgian territory.
    In Ukraine, Russia uses hybrid warfare operations by 
combining influence operations with clandestine military and 
financial support to separatists to seize Crimea, changing the 
boundary of a European nation by force for the first time since 
the end of the Cold War. Since then, Russia has sought to 
consolidate its control by providing direction and equipment, 
including heavy weapons, to separatist forces in eastern 
Ukraine, while failing to fulfill its commitments under the 
Minsk ceasefire agreements.
    We have also seen Putin draw upon similar tools to prop up 
the Assad regime in Syria, while seeking to mislead the 
international community by stating the purpose of its military 
involvement there is to counter ISIS [Islamic State of Iraq and 
Syria].
    Putin has even gone so far as to engage in nuclear saber 
rattling, conducting nuclear exercises during the 2014 Crimea 
invasion. According to recent news reports, Russia is fielding 
a missile system that violates the Intermediate-range Nuclear 
Forces, or INF, Treaty and threatens all of NATO. I would be 
interested in hearing from General Breedlove and our other 
witnesses about their thoughts on whether United States and 
NATO military forces are appropriately postured and trained to 
deter Russian aggression across Europe and to respond in the 
event of a crisis.
    At the same time, the Kremlin's playbook also includes a 
wide range of non-military tools at Putin's disposal to 
influence the West. Russia employs an array of covert and overt 
asymmetric weapons short of military conflict, including cyber 
hacking, disinformation, propaganda, economic leverage, 
corruption, and even political assassination. General 
Breedlove, I would be interested in your recommendations from 
your time as EUCOM Commander and SACEUR [Supreme Allied 
Commander Europe] on how to detect and respond to the 
appearance of ``little green men'' in Ukraine and Russian 
disinformation operations intended to conceal Russian 
aggression on the ground.
    In addition, we need to better understand how the Kremlin 
is conducting influence activities as part of a concerted 
effort to harm Western cohesion and opposition to Russia. There 
needs to be a recognition that Russian state-controlled media, 
such as RT [Russia Today] and Sputnik, disseminates fake news, 
amplified through social media, to undermine people's faith in 
democratic institutions in Europe and in the United States. 
Just last week, we heard warnings in the Banking Committee 
about how divisions within the EU could weaken sanctions 
imposed against Russia following its seizure of the Crimea 
peninsula in Ukraine.
    Moreover, Russia appears to be growing bolder in its use of 
influence operations to coerce its neighbors and undermine 
Western opposition. The January 2017 Intelligence Community 
Assessment of Russian Activities and Intentions in Recent 
United States Elections found that Russia's influence efforts 
in the 2016 United States presidential election reflects a 
significant escalation compared to Russia's previous 
information operations. The report also warned that these 
cyber-enabled multifaceted influence operations that the 
Kremlin used to target the United States democratic process 
likely represent a new normal in Russian conduct toward the 
United States and our European allies and partners. This 
pattern of Russian interference will only continue and 
intensify over time if it goes unchallenged.
    Countering this national security threat will require a 
whole-of-government approach that brings together the 
Departments of Defense, State, Homeland Security, and others. I 
would be interested in our witnesses' thoughts on how the 
United States Government needs to be organized to counter the 
Russian influence threat and how Congress might resource such 
an effort. I will ask our witnesses whether they agree that 
significant cuts at the State Department and other civilian 
agencies would significantly hamper our ability to use 
diplomacy, strategic communications, and other foreign policy 
tools to counter these Russian malign activities.
    Finally, what is clear is that we need a comprehensive 
strategy for countering the anti-Western aggression from the 
Kremlin. Such a strategy will need to be based on a clear-eyed 
understanding of Russia's strategic aims and how it is using 
the full range of influence operations to achieve these goals. 
I intend to work with Chairman McCain to undertake the 
necessary effort within this committee to examine this question 
in depth. I believe we can work in a bipartisan fashion to 
address this national security threat. I look forward to this 
morning's hearing to begin to shed light on this critical issue 
for our country and for European security.
    Thank you, Mr. Chairman.
    Chairman McCain. I welcome the witnesses. General 
Breedlove?

    STATEMENT OF GENERAL PHILIP M. BREEDLOVE, USAF (RET.), 
   DISTINGUISHED PROFESSOR, SAM NUNN SCHOOL OF INTERNATIONAL 
            AFFAIRS, GEORGIA INSTITUTE OF TECHNOLOGY

    General Breedlove. Chairman McCain, Ranking Member Reed, 
thank you for this invitation to testify before you again. It 
is an honor to be here to talk about United States strategy and 
policy in Europe, and in particular, I applaud your inquiry 
into United States-Russia issues.
    United States-Russian relations are very much in the news 
these days. I believe it is appropriate given their importance, 
and I believe it is essential to look at these relations in a 
thorough, dispassionate way. That is what I hope we do today. 
There is much to talk about a new start with the Kremlin, and 
given the right framework and circumstances, I believe that has 
merit.
    Our current vector in United States-Russian relations is 
not a good one, and I believe if we do not find the right 
framework for engagement, it will not improve. The key is that 
framework and how we proceed.
    Russia is a great power with a proud history, and they have 
the world's largest country in terms of territory, and they are 
a player on the world stage. Russia possesses the world's 
second most powerful military: a nuclear arsenal comparable to 
ours and conventional forces that are easily the most powerful 
in Europe. While its economy is stagnant and it has been hit 
hard by the low prices of oil and natural gas, it is still the 
12th largest in terms of dollars. We cannot simply dismiss 
Russia as a declining and regional power.
    Again, given the right framework, it makes great sense for 
our Government to have meaningful discussions with Russia at a 
number of levels. We have much to discuss with the Kremlin. 
First, we would like to make sure our relationship does not 
deteriorate further. While we have more strategic matters to 
discuss, we need to address shared concerns about Moscow's 
current practice of flying warplanes dangerously close to us, 
at times without their transponders on, and causing problems 
with American and other NATO planes and ships. Such incidents 
risk fatal accidents and even a clash between the United States 
and Russia. We need to reestablish substantive communication 
between our militaries in order to avoid such incidents and, 
when they occur, to move toward deconfliction.
    If Moscow really wants to improve relations, progress on 
these questions should not be hard to achieve. With an 
incremental approach and incremental successes, we can start to 
look for more substantial meetings to take on more difficult 
questions. Once we make progress in deconfliction, we can 
address more global issues of mutual interest. Holding a summit 
possibly in the future to launch that dialogue would signal a 
commitment by Washington and Moscow and would provide an 
important opportunity to address an issue important for over 
half a century, that of nuclear disarmament. This area has been 
dormant for some time now. Of course, before we can move to new 
agreements on nuclear issues, it is important that Moscow moves 
quickly to cease its violation of the Intermediate-range 
Nuclear Forces agreement.
    Iran is another important area for discussion. Moscow and 
Iran have worked together closely in Syria, and Iran has even 
provided Russian warplanes a base for a brief period of time. 
Yet, at the same time, Moscow worked with us and others in 
persuading Tehran to sign the agreement on its nuclear program. 
Our administration has indicated that it wants to take a second 
look and improve the terms of that agreement. Is Moscow really 
willing to partner on this, or does it prefer good relations 
with Tehran at the expense of stability in the Persian Gulf?
    A third area to discuss is working with the Russians to 
counter Daesh or the Islamic State of Iraq and in the Levant 
and other violent extremist organizations. If Moscow were a 
reliable partner against Daesh, the advantages are obvious. The 
complication, though, is that Moscow's military operation in 
Syria has devoted little attention to these extremists. It has 
instead been directed against our moderate allies and lately as 
it works with Ankara against the Kurds.
    In addition, Moscow's saturation bombing against towns and 
cities has fueled refugee flows, exacerbating the refugee 
crisis in Europe. In fact, there has been very little overlap 
in our strategic objectives in Syria, and Moscow's principal 
objective in Syria is to shore up the weak, yet savage Assad 
regime. If we back off active opposition to Assad, which I 
think would be a serious concession to Mr. Putin, can we depend 
on Moscow to be a real partner in Syria and beyond against 
Islamic extremism?
    We can add other issues to this possible dialogue. 
Cooperation in dealing with drug trafficking and space 
exploration should be on the table. There is ample opportunity 
that the Kremlin and the White House can achieve a great deal 
when our interests are similar and we work together.
    But we must, however, be realistic and not turn our eyes 
from places where Moscow is challenging our interests. 
President Putin has made clear that he wants to upend the post-
Cold War order established in Europe. He and senior Russian 
officials have justified aggression in Ukraine by claiming a 
right to protect ethnic Russians and Russian speakers there. 
They have said that this principle applies elsewhere. Their 
goal is to weaken NATO, the European Union, and the 
transatlantic relationship.
    Clearly there are two sides to every story. However, over 
the past nine years, as both of you have mentioned, the Kremlin 
has committed multiple acts of aggression in Georgia in 2008, 
in Crimea in 2014, and since then, an ongoing, not-so-covert 
war in Ukraine's east. It has agreed to two ceasefires and 
violated each repeatedly.
    Moscow has indicated by actions and statements that if it 
succeeds in Ukraine, there could be future targets. All three 
of our NATO allies in the Baltics, Estonia, Latvia, and 
Lithuania, are worried. Two of them, Estonia and Latvia, with 
their large ethnic Russian populations are concerned that 
Russia might try to use them as an excuse. Moscow sent this 
message when it kidnapped an Estonian intelligence official 
from Estonia on the same day that the Wales NATO summit ended 
in September of 2014.
    We have a vital interest in stopping Moscow's revanchist 
policies before they move to other countries, especially our 
NATO allies in the Baltics. Yes, we can conduct negotiations 
with Moscow on global issues, but we also need to continue to 
strengthen NATO's presence along its eastern flank. The Warsaw 
NATO summit last summer took decisions to do that. The 
administration should endorse those decisions and reaffirm our 
article 5 commitment to defend each NATO member under threat, 
and it should take the lead in enhancing NATO capacities to 
deal with hybrid war, as you both mentioned, the appearance of 
disguised Russian agents or ``little green men'' in allied 
countries as an example. To underscore our commitment to the 
Alliance, I agree with the President's plan to meet first with 
his NATO colleagues before seeing Mr. Putin.
    Mr. Putin understands the value of negotiating from 
strength. We can demonstrate our strength by developing a more 
forward defensive force and a more forward defensive force 
posture to deal with the Kremlin's challenges to Europe. 
Additionally, we should more fully support Ukraine against the 
Kremlin's aggression. In our past, we have been reluctant to 
provide Ukraine with defensive weapons so as to better defend 
itself. Our team should review that decision.
    Part of this is maintaining the economic pressure on 
Moscow. Our and Europe's economic sanctions, which cost the 
Russian economy 1 to 1.5 percent of its GDP [Gross Domestic 
Product] in 2015, were imposed as an incentive for Moscow to 
meet its Minsk commitments and withdraw from Ukraine's east and 
as a deterrence against any additional aggression. It would be 
a sign of weakness to ease those sanctions for anything less 
than Moscow's full compliance with Minsk, which means a full 
restoration of the internationally recognized border between 
Russia and Ukraine. The more trouble the Kremlin has in 
conducting its war in Ukraine, the less likely it is to cause 
trouble for us with our eastern NATO partners.
    The last six months have demonstrated that we must greatly 
improve our cyber defense to block and deter operations that 
the Kremlin has been conducting against us and others. The 
latest dump of documents via Wiki is another reminder of the 
need to raise our cyber defense. We also need to consider how 
we can respond to future cyber attacks in ways--perhaps not 
public--that would deter future cyber aggression. This is 
another subject for discussion with Moscow once we strengthen 
our position.
    Finally, sir, the world and the United States have enjoyed 
extraordinary peace, stability, and prosperity since the end of 
World War II and the Cold War. As just one measure, in 1970 
over two billion of the world's three billion people lived in 
extreme poverty. In 2015, less than 1 billion of the globe's 
nearly seven billion people are in extreme poverty. An 
important reason for this is the peace and stability created by 
the great institutions that the United States, with its 
European partners, put together at the end of World War II, and 
that, sir, includes NATO.
    We have a vital interest in maintaining a strong NATO and a 
vibrant Europe.
    A dialogue with Moscow is possible. So too is cooperation. 
If the Kremlin is ready to work with us against Daesh or to 
improve the Iranian nuclear deal, we should be ready. But we 
should not be shy or hesitant about defending our interests 
when we are under challenge from the Kremlin. A policy of 
strength requires nothing less.
    [The prepared statement of General Breedlove. follows:]

     Prepared Statement by General Philip M. Breedlove, USAF (Ret)
    Chairman McCain, Ranking Member Reed, thank you for this invitation 
to testify before you again. It is an honor to be here to talk about 
United States Strategy and policy in Europe, and in particular I 
applaud your inquiry into United States-Russian relations.
    United States-Russian relations are very much in the news these 
days. I believe it is appropriate given their importance; and I believe 
it is essential to look at these relations in a thorough, dispassionate 
way. That is what I hope we do today. There is much talk about a new 
start with the Kremlin, and given the right framework and circumstances 
I believe that has merit.
    Our current vector in United States-Russian relations is not a good 
one, and I believe if we do not find the right framework for engagement 
it will not improve. The key is that framework and how we proceed.
    Russia is a great power with a proud history, the world's largest 
country in terms of territory, and a player on the world stage. Russia 
possesses the world's second most powerful military: a nuclear arsenal 
comparable to ours and conventional forces that are easily the most 
powerful in Europe. While its economy is stagnant and has been hit hard 
by the low prices of oil and natural gas, it is still the 12th largest 
in dollar terms. We cannot simply dismiss Russia as a declining and 
regional power.
    Again, given the right framework it makes great sense for our 
Government to have meaningful discussions with Russia at a number of 
different levels. We have much to discuss with the Kremlin. First, we 
would like to make sure our relationship does not deteriorate further. 
While we have more strategic matters to discuss, we need to address 
shared concerns about Moscow's current practice of flying warplanes 
dangerously close, and at times without their transponders on, to 
American and other NATO planes and ships. Such incidents risk fatal 
accidents and even a clash between the United States and Russia. We 
need to re-establish substantive communication between our militaries 
in order to avoid such incidents, and when they occur, to move toward 
de-confliction.
    If Moscow really wants to improve relations, progress on these 
questions should not be too hard to achieve. With an incremental 
approach and incremental successes, we can start to look for more 
substantial meetings to take on more difficult questions. Once we make 
progress in deconfliction we can address more global issues of mutual 
interest. Holding a summit to launch that dialog would signal a 
commitment by Washington and Moscow, and would provide an important 
opportunity to address an issue important for over half a century: 
nuclear disarmament. This area has been dormant for some time now. Of 
course, before we can move to new agreements on nuclear issues, it is 
important that Moscow moves quickly to cease its violation of the 
Intermediate Range Nuclear Forces (INF) agreement.
    Iran is another important area for discussion. Moscow and Iran have 
worked together closely in Syria. Iran even provided Russian warplanes 
a base for a brief period of time; yet at the same time Moscow worked 
with us and others in persuading Tehran to sign the agreement on its 
nuclear program. Our administration has indicated that it wants to take 
a second look and improve the terms of that agreement. Is Moscow 
willing to partner on this? Or does it prefer good relations with 
Tehran at the expense of stability in the Persian Gulf?
    A third area to discuss is working with the Russians to counter 
Daesch, or the Islamic State of Iraq, and the Levant (ISIL), and other 
violent extremist organizations. If Moscow were a reliable partner 
against Daesch, the advantages are obvious. The complication, though, 
is that Moscow's military operation in Syria has devoted little 
attention to these extremists. It has instead been directed against our 
moderate allies and lately, as it works with Ankara, against the Kurds.
    In addition, Moscow's saturation bombing against towns and cities 
has fueled refugee flows, exacerbating the refugee crisis in Europe. In 
fact, there has been very little overlap in our strategic objectives in 
Syria, and Moscow's principal objective in Syria is to shore up the 
weak, yet savage, Assad regime. If we back off active opposition to 
Assad--a serious concession to Mr. Putin--can we depend on Moscow to be 
a real partner in Syria and beyond against Islamic extremists?
    We can add other issues to this possible dialog. Cooperation in 
dealing with drug trafficking and space exploration should also be on 
the table. There is ample opportunity that the Kremlin and the White 
House can achieve a great deal when our interests are similar and we 
work together.
    We must however be realistic and not turn our eyes from places 
where Moscow is challenging our interests. President Putin has made 
clear that he wants to upend the post-Cold War order established in 
Europe. He and senior Russian officials have justified aggression in 
Ukraine by claiming a right to protect ethnic Russians and Russian 
speakers there; and they have said that this principle applies 
elsewhere. Their goal is to weaken NATO, the European Union, and the 
Transatlantic relationship.
    Clearly there are two sides to every story, however, and over the 
past nine years, the Kremlin has committed multiple acts of aggression: 
in Georgia in 2008; in Crimea in early 2014; and since then an ongoing 
not-so-covert war in Ukraine's East. It has agreed to two ceasefires--
Minsk I and II--and violated each repeatedly.
    Moscow has indicated, by actions and statements that if it succeeds 
in Ukraine, there could be future targets. All three of our NATO Allies 
in the Baltics--Estonia, Latvia, and Lithuania--are worried. Two of 
them, Estonia and Latvia, with their large ethnic Russian populations, 
are concerned that Russia might try to use them as an excuse. Moscow 
sent this message when it kidnapped an Estonian intelligence official 
from Estonia on the same day that the Wales NATO summit ended in 
September of 2014.
    We have a vital interest in stopping Moscow's revanchist policies 
before they move to other countries, especially our NATO allies in the 
Baltics. Yes, we can conduct negotiations with Moscow on global issues; 
but we also need to continue to strengthen NATO's presence along its 
eastern flank. The Warsaw NATO summit last summer took decisions to do 
that. The new Administration should endorse those decisions and 
reaffirm our article 5 commitment to defend each NATO member under 
threat; and it should take the lead in enhancing NATO capacities to 
deal with hybrid war--the appearance of disguised Russian agents or 
little green men--in Allied countries. To underscore our commitment to 
the Alliance, I agree with the President's plan to meet first with his 
NATO colleagues before seeing President Putin.
    Mr. Putin understands the value of negotiating from strength. We 
can demonstrate our strength by developing a more forward defensive 
force posture to deal with the Kremlin's challenges to Europe. 
Additionally, we should more fully support Ukraine against the 
Kremlin's aggression. In our past, we have been reluctant to provide 
Ukraine with defensive weapons so as to better defend itself, our team 
should review that decision.
    Part of this is maintaining the economic pressure on Moscow. Our, 
and Europe's, economic sanctions--which cost the Russian economy 1-1.5 
of GDP in 2015--were imposed as an incentive for Moscow to meet its 
Minsk commitments and withdraw from Ukraine's East, and as a deterrence 
against additional aggression. It would be a sign of weakness to ease 
those sanctions for anything less than Moscow's full compliance with 
Minsk, which means a full restoration of the internationally recognized 
border between Russia and Ukraine. The more trouble the Kremlin has 
conducting its war in Ukraine, the less likely it is to cause trouble 
for us with our eastern NATO partners.
    The last six months have demonstrated that we must greatly improve 
our cyber defenses to block and deter the operations that the Kremlin 
has been conducting against us and others. The latest dump of documents 
via Wiki Leaks is another reminder of the need to raise our cyber 
defense. We also need to consider how we can respond to future cyber-
attacks in ways--perhaps not public--that would deter future cyber 
aggression. This is another subject for discussion with Moscow--once we 
strengthen our position.
    The world and the United States have enjoyed extraordinary peace, 
stability and prosperity since the end of World War II and the Cold 
War. To take just one measure, in 1970 over two billion of the world's 
three billion people lived in extreme poverty. In 2015 less than one 
billion of the globe's nearly 7 billion people are in extreme poverty. 
An important reason for this is the peace and stability created by the 
great institutions that the United States created with its European 
partners at the end of World War II to include NATO and the European 
Union.
    We have a vital interest in maintaining a strong NATO and vibrant 
Europe.
    A dialogue with Moscow is possible. So too is cooperation. If the 
Kremlin is ready to work with us against Daesch or to improve the 
Iranian nuclear deal, we should be ready. But we should not be shy or 
hesitant about defending our interests when we are under challenge from 
the Kremlin. A policy of strength requires nothing less.
    The Atlantic Council takes no institutional positions on policy 
issues and has no affiliation with the United States Government. All 
statements of fact and expressions of opinion contained herein are the 
sole responsibility of the author.

    Chairman McCain. Ambassador Burns, welcome back.

 STATEMENT OF AMBASSADOR WILLIAM J. BURNS, PRESIDENT, CARNEGIE 
               ENDOWMENT FOR INTERNATIONAL PEACE

    Ambassador Burns. Thank you very much. Chairman McCain, 
Ranking Member Reed, members of the committee, I am honored to 
be with you again, and I am honored to join General Breedlove 
and Ambassador Vershbow. I am glad to offer a few very brief 
thoughts on the challenges posed by Putin's Russia and what to 
do about it.
    In the quarter century since the end of the Cold War, 
profound grievances, misperceptions, and disappointments have 
often defined the relationship between the United States and 
Russia. I lived through this turbulence during my years as a 
diplomat in Moscow, navigating the curious mix of hope and 
humiliation that I remember so vividly, and the Russia Boris 
Yeltsin and the pugnacity and raw ambition of Vladimir Putin's 
Kremlin. I lived through it in Washington, serving both 
Republican and Democratic administrations.
    There have been more than enough illusions on both sides. 
The United States has oscillated between visions of an enduring 
partnership with Moscow and dismissing it as a sulking regional 
power in terminal decline. Russia has moved between notions of 
a strategic partnership with the United States and a later 
deeper desire to upend the current international order where a 
dominant United States consigns Russia to a subordinate role.
    The reality in my view is that our relationship with Russia 
will remain competitive and often adversarial for the 
foreseeable future. At its core is a fundamental disconnect in 
outlook and about each other's role in the world.
    President Putin's deeply troubling interference in our 
elections, like his broader foreign policy, has at least two 
motivating factors.
    The first is his conviction that the surest path to 
restoring Russia as a great power comes at the expense of an 
American-led order. Resentful of what he and many in the 
Russian political elite perceive as a pattern of the West 
taking advantage of Russia's moment of historic weakness, Putin 
wants Russia unconstrained by Western values and institutions, 
free to pursue a sphere of influence.
    The second motivating factor is closely connected to the 
first. The legitimacy of Putin's system of repressive domestic 
control depends on the existence of external threats. Surfing 
on high oil prices, he used to be able to bolster his social 
contract with the Russian people through rising standards of 
living. But Putin has lost that card in a world of lower energy 
prices and Western sanctions and with a one-dimensional economy 
in which real reform is trumped by the imperative of political 
control and the corruption that lubricates it.
    The ultimate realist, Putin is not blind to Russia's 
relative weakness but regularly demonstrates that declining 
powers can be at least as disruptive as rising powers. He tends 
to see a target-rich environment around him. If he cannot 
easily build Russia up, he can take the United States down a 
few pegs with his characteristic tactical agility and 
willingness to play rough and take risks. If he cannot have a 
deferential government in Kyiv, he can grab Crimea and try to 
engineer the next best thing, a dysfunctional Ukraine. If he 
cannot abide the risk of regime upheaval in Syria, he can flex 
Russia's military muscle, emasculate the West, and preserve 
Bashar al Assad atop the rubble of Aleppo. If he cannot 
directly intimidate the European Union, he can accelerate its 
unraveling by supporting anti-union nationalists and exploiting 
the wave of migration spawned in part by his own brutality. If 
we cannot directly confront NATO, he can probe for fissures 
within it and make mischief in the Balkans.
    So what do we do about all of this? Russia is still too 
big, proud, and influential to ignore and still the only 
nuclear power comparable to the United States. It remains a 
major player on problems from the Arctic to Iran and North 
Korea. The challenge before us, it seems to me, is to manage 
without illusions a difficult and combative relationship. I 
would highlight five key elements of a realistic strategy.
    First, we need to sustain and, if necessary, amplify the 
steps we have taken in response to Russian hacking. It would be 
foolish to think that Russia's serious assault on our election 
can or should be played down however inconvenient. Russia 
challenged the integrity of our democratic system, and it sees 
Europe's 2017 electoral landscape as the next battlefield.
    Second, we have to reassure our European allies of our 
absolute commitment to NATO, as General Breedlove stressed. In 
diplomacy, remembering your base is just as important as it is 
in politics, and it is what should guide our policy toward 
Russia. Our network of allies is not a millstone around 
America's neck, but a powerful asset that sets us apart from 
relatively lonely major powers like Russia and China.
    Third, we have to stay sharply focused on Ukraine, a 
country's whose fate will be critical to the future of Europe 
and the future of Russia over the next generation. This is not 
about the distant aspirations of NATO or European Union 
membership. It is about helping Ukrainian leaders build the 
successful political and economic system that Russia seeks to 
subvert. This is just one dramatic example of why the 
administration's proposed foreign assistance cuts are so 
terribly shortsighted.
    Fourth, we should be wary of superficially appealing 
notions like a common war on Islamic extremism or a common 
effort to contain China. Russia's bloody role in Syria and its 
continued attachment to Assad make the terrorist threat worse, 
not better. Its long-term concerns about a rising China to its 
east are real, but for now, Putin has little inclination to 
sacrifice the relationship with Beijing, critical to the more 
immediate objective of eroding an American-led order.
    Fifth and finally, we need to focus on critical and 
practical priorities like rebuilding habits of communication 
between the United States and Russian militaries, again as 
General Breedlove stressed, to help forestall inadvertent 
collisions in Europe or in the Middle East. As former Senator 
Sam Nunn has argued, we should engage in our own cold-blooded 
self-interest, as well as Russia's, on issues where we can both 
benefit, particularly reducing the risks of nuclear 
confrontation and of nuclear or radiological materials falling 
into the wrong hands. For all our profound differences, Russia 
and the United States share a unique capability and a unique 
responsibility to reduce nuclear risks.
    Mr. Chairman, I have no illusions about the challenge 
before us. It really pays to neglect or underestimate Russia or 
display gratuitous disrespect, but I am also convinced that 
firmness and vigilance and a healthy grasp of the limits of the 
possible are the best way to deal with the combustible 
combination of grievance and insecurity that Vladimir Putin 
embodies. We have a better hand to play than he does. We should 
play it methodically, confident in our enduring strengths, and 
unapologetic about our values.
    Thank you very much.
    [In lieu of a written statement, Ambassador Burns submitted 
the following articles:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      
    Chairman McCain. Thank you.
    Ambassador Vershbow?

 STATEMENT OF AMBASSADOR ALEXANDER R. VERSHBOW, DISTINGUISHED 
   FELLOW, BRENT SCOWCROFT CENTER ON INTERNATIONAL SECURITY, 
                        ATLANTIC COUNCIL

    Ambassador Vershbow. Thank you. Chairman McCain, Ranking 
Member Reed, other members of the committee, it is an honor for 
me to be able to speak before you today on United States 
security strategy and policy in Europe and, in particular, how 
to meet the challenge posed by an aggressive revisionist 
Russia.
    I submitted a longer prepared statement in which I describe 
the many dimensions of the Russian challenge. Of course, the 
watershed event occurred exactly three years ago with the 
illegal annexation of Crimea and the launching of the ongoing 
campaign to destabilize other parts of Ukraine. President Putin 
tore up the international rulebook, and he ended a period, as 
you said, Mr. Chairman, of more than 20 years when we looked to 
Russia as a potential partner.
    Three years later, the Russian challenge has become even 
more serious. Not only have they continued the aggression 
against Ukraine, they have engaged in political aggression 
against our societies using cyber attacks, disinformation, and 
influence operations to affect the outcome of elections and 
undermine confidence in our democratic institutions.
    In essence, Russia is trying to undo decades of progress 
toward a more stable and integrated Euro-Atlantic community and 
to go back to the days when Russia dominated its neighbors 
through force and coercion. It aims to weaken and divide NATO 
and the European Union and to reduce their attractiveness to 
other European nations. It even sponsored an armed coup d?etat 
in Montenegro last year to derail that country's accession to 
NATO. It wants to reduce U.S. influence in the world. But I 
think the main driver of what is going on is a determination to 
preserve the Putin regime's grip on power by discrediting any 
Western-oriented alternative and distracting the Russian people 
from the country's economic decline. So as Bill Burns said, 
that requires an external enemy.
    Of course, now the challenge to the international order 
extends to the Middle East with devastating consequences for 
the people of Syria while contributing little to international 
efforts to defeat ISIS. All of this is occurring against a 
backdrop of a massive upgrading of Russian military forces in 
every domain while Russia flouts its obligations under arms 
control agreements, including violating the INF Treaty.
    So while we should always seek constructive relations with 
Russia, we must approach that relationship without any 
illusions. Since it is Russia's actions which have 
fundamentally changed our relationship, any change for the 
better depends on changes in Russian behavior. To get there, we 
need a comprehensive strategy that builds upon the combined 
material and moral strength of our close allies and partners in 
Europe and around the world. As in the Cold War, we must engage 
with Russia but from a position of strength.
    Now, what would be the elements of a comprehensive 
strategy? As you know, I spent the last five years as Deputy 
Secretary-General of NATO, and I am pleased to say that the 
Alliance is in a much stronger position than it was three years 
ago militarily and politically to meet the Russian challenge. 
General Breedlove deserves a lot of the credit for that.
    Since 2014, NATO has carried out the most significant 
increase in its collective defense posture for a generation. 
Allies have begun to reverse the decline in defense spending. 
They have increased NATO's ability to reinforce allies at short 
notice, increased the scale and frequency of exercises, boosted 
cyber and missile defense, strengthened intelligence sharing, 
and tried to speed up decision-making in a crisis.
    At Warsaw last July, allies decided that credible 
deterrence also required additional forces on the ground. So 
they agreed to deploy multinational battalions in Poland, 
Lithuania, Latvia, and Estonia, and also to increase NATO's 
presence in Southeastern Europe as well. So now if Russian 
troops or ``little green men'' cross the borders, they will 
immediately face troops from across the Alliance from both 
sides of the Atlantic rather than just national forces.
    I am pleased to say that the United States is playing a 
very key role in implementing these decisions, leading the 
battalion in Poland and contributing additional combat 
capabilities under the European Deterrence Initiative. This 
initiative is critical to the credibility of NATO's defense and 
deterrence posture, and I hope it will continue to receive full 
support from the new administration and the Congress as a 
demonstration of our unequivocal commitment to the Alliance.
    But the United States is not shouldering this burden alone. 
I am pleased to say that the UK, Canada, and Germany are 
leading NATO's battalions in the three Baltic States, and 12 
other allies have stepped up to provide units.
    Nevertheless, there is a lot more that our allies need to 
do in the coming years, which I spell out in my written 
statement. They have to contribute more follow-on forces, more 
investments in air and missile defense, precision strike, anti-
submarine warfare capabilities to counter Russian A2/AD 
capabilities. That all requires resources, and I hope that by 
the time of the mini-summit in late May, that all allies will 
have concrete plans to accelerate the increasing of their 
defense spending to meet the two percent of GDP goal.
    Now, we cannot just circle the wagons and strengthen NATO's 
28 members alone. There is also a need to do more to bolster 
the capabilities of Russia's neighbors who are directly 
threatened by Moscow and strengthen our partnerships with 
countries like Sweden and Finland who can help the Alliance, 
especially in the Baltic Sea region. Our packages of support 
for Ukraine and Georgia through NATO have helped with the 
defense reforms, but they would benefit from a lot more 
resources.
    Bilaterally, the United States nonlethal defensive weapons 
assistance and training has helped Ukraine's armed forces 
prevent further Russian incursions in the Donbas, but we should 
consider expanding the support quantitatively and qualitatively 
to include lethal systems such as anti-tank weapons, UAVs 
[Unmanned Ariel Vehicles], and air defenses if Russia continues 
its aggression in eastern Ukraine.
    Of course, while it is not our focus today, NATO needs to 
look south as well as east when it comes to strengthening its 
neighbors. A bigger effort in defense capacity building for 
partners in the Middle East and North Africa could address the 
root causes of terrorism and migration.
    Now, Russian interference in our presidential election and 
its similar efforts in Europe call for a strong response both 
at the national level and through NATO and the EU [European 
Union]. We need to do more to ensure the integrity of our 
election processes and institutions against cyber attacks and 
foreign manipulation. We should devote additional resources to 
detecting and analyzing Russian propaganda and influence 
operations, work with the social media companies to label or 
take down false stories before they go viral, and expand radio, 
TV, and Internet broadcasting, especially in the Russian 
language, to debunk disinformation and fake news. We should not 
fight propaganda with propaganda, however, but project a 
positive narrative about what the West stands for.
    I think NATO could take a bigger role in the countering 
influence operations and Russian active measures. These may not 
be traditionally in NATO's mandate, but defending societies is 
just as important as defending borders. Here we should join 
forces with the European Union to forge and integrate a 
strategy for countering the whole spectrum of hybrid warfare 
methods since NATO does not have all the necessary tools.
    Now, just a few words on how to engage with Russia. First 
of all, I would agree that we need a unified approach with our 
democratic allies, one consistent with our shared values and 
principles. This means, first of all, that engagement should 
address head on the fundamental reason why relations have 
deteriorated in the first place: Russia's aggression against 
Ukraine and its violation of the rules that have kept the peace 
in Europe since the end of World War II.
    Time is of the essence. In recent days, Russia has 
increased its military and political pressure on Ukraine. The 
Minsk process led by Germany and France may have prevented 
further deterioration up until now, but it does not provide 
sufficient leverage to induce Russia to reverse course and 
withdraw its forces and its proxies from the occupied 
territories. So I would argue that stronger, high-level United 
States diplomatic engagement working with Kyiv, Berlin, and 
Paris may be necessary to achieve real progress and avoid 
another intractable frozen conflict.
    So I would urge the Trump administration to make solving of 
the conflict in eastern Ukraine the litmus test and the 
essential first step in any reengagement effort with Moscow, 
and as a first step, we should consult with our allies to 
develop a common strategy. There may be things to talk about 
with Russia on Iran, ISIS, North Korea, but the core issue that 
we need to tackle head on is the aggression in Ukraine. Any 
bargain with Moscow and any easing of sanctions should be 
contingent on fully implementing the Minsk agreements and 
restoring Ukrainian sovereignty over the Donbas, including 
control over its international borders. Anything less would 
reward Russian aggression and only embolden Mr. Putin further.
    Last but not least, successful pursuit of the kind of 
strategy I have outlined depends on Western unity and resolve. 
That unity and resolve is being tested not just by external 
challengers like Putin and ISIS, it is also threatened from 
within: Brexit, public dissatisfaction with illegal migration, 
and slow economic growth, a Turkey that seems to be drifting 
away from Western values, to name just a few. As in the past, 
United States leadership will be essential in holding NATO 
together and in ensuring that decision-making by consensus 
continues to be effective. At the same time, the United States 
needs to demonstrate in word and deed that it supports a 
strong, united Europe as an indispensable partner in dealing 
with Russia and other challenges even as we work to overcome 
differences on trade or refugee policy.
    The perception that the Trump administration is skeptical 
about the European Project could exacerbate internal divisions 
within Europe and provide openings for Russian mischief making.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Vershbow follows:]

          Prepared Statement by Ambassador Alexander Vershbow
                         the russian challenge
    Three years ago this month, Russia illegally annexed Crimea and 
laid the groundwork for its campaign to destabilize Ukraine. That 
moment marked the end of a period of more than twenty years when the 
countries of the West looked to Russia as a partner. Of course, even 
before 2014, Russia had demonstrated a pattern of destabilizing 
countries in its neighborhood, particularly Moldova and Georgia. But 
Russia's aggression against Ukraine--including the first changing of 
borders by force in Europe since World War II--represented a new 
strategic reality, and a wake-up call for the United States and its 
NATO Allies.
    That new strategic reality is even starker today: Russia has not 
only continued to undermine the post-WWII and post-Cold War 
international order--an order based on respect for the sovereignty of 
nations, and the rule of law--through its illegal occupation of Crimea 
and its ongoing war of aggression in Eastern Ukraine; Russia has also 
engaged in political aggression against our societies, using cyber-
attacks, disinformation, propaganda, and influence operations (what the 
Soviets called ``active measures'') to affect the outcome of elections 
and to undermine confidence in our democratic institutions.
    In essence, Russia is trying to undo decades of progress toward a 
more stable and integrated Euro-Atlantic community. It wants to turn 
back the clock to a time when Russia dominated neighboring countries 
through force and coercion. Using military intimidation, economic 
warfare and ``active measures,'' it aims to weaken and divide NATO and 
the European Union, which it sees as the main obstacles to its expanded 
power in Europe, and to reduce their attractiveness to other European 
nations. It openly works to destabilize countries that seek closer ties 
to the Euro-Atlantic community, as we are seeing in the Western 
Balkans, even sponsoring an armed coup d'etat in Montenegro last year 
to derail its accession to NATO. All of this is driven by a 
determination to preserve the Putin regime's grip on power by 
discrediting any Western-oriented alternative and distracting the 
public from Russia's economic decline.
    Moscow's challenge to the international rules-based order now 
extends beyond Europe to Syria and the broader Middle East. As Russia 
has provided greater levels of military support for President Assad--
including bombing moderate opposition groups and critical 
infrastructure, and driving tens of thousands of civilians from Aleppo 
and other cities--it has made it even more difficult to find a long-
term end to the war in Syria, while contributing little to 
international efforts to defeat ISIS. Now, Russia may be seeking a 
foothold in Libya, putting at risk international efforts to support the 
government of national accord and end the civil war.
    All of this has occurred against the backdrop of a massive 
upgrading of Russian military forces, both conventional and nuclear. 
After their forces' poor performance against Georgia in 2008, Russian 
military spending has increased by one-third and its modernization 
programs have transformed Russian capabilities in every domain. At the 
same time, Russia continues to flout many of its obligations under arms 
control and transparency regimes, as we have seen with the recent news 
about the deployment of a long-range ground-launched cruise missile in 
violation of the INF Treaty.
                           guiding principles
    While we should always seek constructive relations with Russia, we 
must approach the relationship without illusions. We need to recognize 
that it is Russia's actions which have fundamentally changed our 
relationship, and that any change for the better depends on changes in 
Russian behavior. Meeting the Russian challenge in the years ahead 
calls for a comprehensive strategy, building on the combined material 
and moral strength of our close Allies and partners in Europe and 
around the world.
    To achieve a more stable and constructive relationship with Moscow 
that is sustainable for the long term, we must speak with Russia from a 
position of strength. During the Cold War, a strong deterrence paved 
the way for detente, for arms control agreements, and for our 
relatively predictable and stable relationship with the Soviet Union. 
Our situation today is different, but it requires a similar approach. A 
combination of strength and engagement is the best way to bring Russia 
back to compliance with international law and with Helsinki principles.
                         elements of a strategy
    A comprehensive strategy for meeting the Russian challenge should 
have many elements, including: bolstering our defense and deterrence 
against potential Russian threats; supporting Russia's neighbors in 
their efforts to build strong, resilient societies and defend their 
sovereignty; countering the Russians' revisionist, anti-Western 
propaganda and other forms of ``hybrid'' warfare aimed at undermining 
our democracies; and continuing to support the aspirations of the 
Russian people for freedom and democracy over the longer term. In all 
of these lines of effort, we have a greater chance of success by 
working closely with our European allies and partners.
Bolstering Defense and Deterrence
    When it comes to bolstering defense and deterrence, the NATO 
Alliance today is in a much stronger position than it was three years 
ago to meet the Russian challenge. Since the Wales Summit in 2014, NATO 
has carried out the most significant increase in its collective defense 
posture for a generation. Allies have begun to reverse the decline in 
defense spending, with total spending up by 3 percent last year. 
Through the Readiness Action Plan, Allies have increased their ability 
to reinforce any Ally at short notice with a much larger NATO Response 
Force of 40,000 troops and a quick-reaction Spearhead Force, ready to 
move within days to wherever it might be needed. They also increased 
the scale and frequency of military exercises, developed a strategy for 
countering ``hybrid'' warfare, boosted NATO's cyber and ballistic 
missile defenses, strengthened intelligence sharing within the 
Alliance, and introduced measures to speed up decision-making in a 
crisis.
    At the Warsaw Summit last July, Allies took even more far-reaching 
decisions to strengthen deterrence for the long term. Allied leaders 
decided that, with Russia's continuing military build-up and its 
growing anti-access/area denial capability, it is not enough to rely on 
reinforcements alone. Credible deterrence also requires additional 
forces on the ground. So at Warsaw, NATO leaders agreed to enhance 
NATO's forward presence in the eastern part of the Alliance with the 
deployment of multinational battalions in Poland, Lithuania, Latvia and 
Estonia, and to increase its presence in southeastern Europe as well. 
So, should any country act aggressively against a NATO Ally, they would 
immediately face troops from across the Alliance, from both sides of 
the Atlantic, rather than just the national forces of one country.
    The United States is playing a key role in implementing these 
decisions, serving as lead nation for the multinational battalion in 
Poland, and contributing additional combat capabilities as part of the 
billion-dollar European Deterrence Initiative. The EDI (and its 
predecessor, the European Reassurance Initiative) have ensured an 
almost continuous presence of United States combat forces across NATO's 
eastern flank--reassuring our Allies, enhancing interoperability and 
readiness, and leaving the Russians in no doubt that they would pay a 
heavy price for testing Alliance resolve. EDI is critical to the 
credibility of NATO's defense and deterrence posture, and I hope it 
will continue to receive full support from the new Administration and 
the Congress.
    When it comes to the eastern flank, the United States is not 
bearing an outsized share of the burden. American contributions are 
being matched by increased efforts on the part of the European Allies 
and Canada. The UK, Canada and Germany have taken the leading role in 
NATO's enhanced forward presence in the three Baltic States, reinforced 
by units from 12 other Allies, and seven European Allies are serving in 
succession as lead nation for NATO's rapidly deployable ``spearhead'' 
force. This is a good example of transatlantic teamwork.
    Nevertheless, there's more that needs to be done in the coming 
years. For example, while our Allies have stepped up by providing 
forces for the eastern flank, they will also need to do their share in 
fielding the follow-on forces--ground, air and naval--and the critical 
enablers needed to back up these ``first responders.'' Right now, the 
U.S. provides the majority of these forces, and allies should commit to 
shouldering at least 50 percent of the burden within the next few 
years.
    Allies will also need to do their part in countering the Russians' 
growing anti-access and area denial capabilities in the Baltic and 
Black Sea regions, which could seriously impede NATO's ability to bring 
in reinforcements. This means investing more in air and missile 
defense, precision strike, and anti-submarine warfare capabilities. 
Allies will also need to commit more assets to the standing NATO 
maritime groups to ensure that the Alliance is able to maintain freedom 
of navigation in the North Atlantic. Despite the renewed emphasis on 
territorial defense, Allies need to maintain and strengthen their 
expeditionary capabilities so that NATO is fully equipped to fight 
terrorism and manage crises beyond NATO's borders.
    All of this requires additional resources. Allies must not only 
adopt concrete plans to fulfill the pledge to raise defense spending to 
2 percent of GDP by 2024, as Secretary of Defense Mattis called for in 
February; they should accelerate these efforts if possible. They should 
also speed up efforts to meet the even more important target of 
devoting 20 percent of their defense budgets to new equipment and R&D--
a benchmark now met by only ten of the 28 allies.
Enhancing the Resilience of Allies and Partners
    Spending more on defense is vital, but it is not enough. Russia 
exploits the weakness and vulnerabilities of our societies and uses 
cyber-attacks and propaganda to turn a country's citizens against their 
own government and toward Russia. Allies must therefore strengthen 
their resilience in key practical areas. Governments must ensure that 
their cyber defenses are strong, that they have a high degree of civil 
preparedness, and that their critical national infrastructure is 
protected. Resilience is the essential first rung of the deterrence 
ladder.
    Moreover, we can't just circle the wagons and strengthen the 
resilience of NATO's 28 members alone. Allies also need to bolster the 
capabilities of Russia's neighbors who are threatened by Moscow, and 
strengthen NATO's partnerships with other European partners, such as 
Sweden and Finland, who can help the Alliance in key regions like the 
Baltic Sea.
    NATO has been engaged for many years in assisting Georgia and 
Ukraine to carry out defense reforms, to raise the proficiency of their 
armed forces, and to bring them closer to NATO standards. Since 2014, 
NATO has expanded these efforts through the Substantial NATO-Georgia 
Package and Comprehensive Assistance Package for Ukraine, and it has 
deployed a team of resident defense advisors to each country. But both 
these efforts are relatively under-resourced in comparison to European 
Union efforts in the police and judicial sectors, and I recommend that 
the Trump Administration push for their expansion.
    Bilaterally, the United States has provided non-lethal defensive 
weapons assistance to Ukraine, and together with Canada, offered 
valuable training to Ukrainian armed forces. This has helped them 
prevent further Russian incursions in the Donbas. We should consider 
expanding this support both quantitatively and qualitatively, to 
include lethal defensive weapons such as anti-tank weapons and air 
defenses, if Russia continues its aggression in Eastern Ukraine.
    When it comes to strengthening its neighbors, NATO needs to look 
South as well as East, by doing more to project stability to its 
partners in the Middle East and North Africa. Helping Middle Eastern 
neighbors build reliable defense institutions, secure their borders, 
and fight terrorism in their own regions is the best way to prevent 
them from becoming failed states and safe havens for ISIS. It would be 
a tangible way for NATO to address the root causes of the migration 
crisis and home-grown terrorism in Allied countries. It would also 
reduce opportunities for Russian meddling. In many areas, such as North 
Africa, defense capacity building could be done in partnership with the 
European Union. It makes no sense to compete with one another, when 
there is more than enough work to go around for both organizations.
Defending our Societies and Countering Russian Disinformation
    Russian interference in the United States presidential election 
last year and its similar efforts to influence the outcome of European 
elections call for a strong response at the national level, but there 
is also a role for NATO and the EU as well.
    Nationally, we need to ensure the integrity of our election 
processes and institutions against cyber-attacks and foreign 
manipulation; we should devote additional resources to detecting and 
analyzing Russian propaganda and influence operations; we should work 
with social media platforms to label or take down false stories before 
the go viral; and we should expand radio, television and internet 
broadcasting aimed at debunking disinformation and ``fake news.'' We 
shouldn't fight propaganda with propaganda, however, but project a 
positive narrative, one that conveys what the West stands for, to our 
own publics and to Russian-speaking audiences.
    Multilaterally, we should urge our NATO allies to support a bigger 
Alliance role in countering influence operations, disinformation and 
``active measures'' by Russia. These are not traditionally problems 
within NATO's mandate, but defending our societies is just as important 
as defending our borders. Here too, closer collaboration between NATO 
and the EU would make sense--in countering propaganda and 
disinformation, in sharing intelligence about cyber and other 
asymmetric threats, and in conducting joint exercises to ensure that 
``little green men'' are not able to do to our countries what they did 
to Ukraine. I hope the Trump Administration will give its full support 
to the development of an integrated NATO-EU strategy for countering 
hybrid warfare, building on the Joint Declaration by NATO and EU 
leaders issued in Warsaw.
Principled Engagement with Russia . . . starting with the Ukraine 
        crisis
    The last, and most challenging, piece of a new political strategy 
for the United States and its Allies is how to engage with Russia, even 
as we seek to deter and counter the multiple threats it poses. 
Relations with Moscow are at their lowest point in decades, and 
President Trump is certainly right in wanting to explore possibilities 
to reduce the risk of conflict, lower tensions and find areas for 
mutually beneficial cooperation. But it is essential that any 
engagement with Russia be based on a unified approach with our 
democratic allies, one that is consistent with our shared values and 
principles. Most importantly, engagement should address head-on the 
fundamental reason why relations have deteriorated in the first place--
Russia's aggression against Ukraine and its violation of the rules that 
have kept the peace in Europe in the decades since the end of World War 
II.
    Recently, Russia has increased its military and political pressure 
on the ground in Eastern Ukraine while using multiple levers to 
undermine and discredit the Ukrainian Government and its policies of 
reform. The Minsk process, led by Germany and France, has been useful 
in preventing a further deterioration of the situation, but does not 
provide sufficient leverage to induce Russia to reconsider its approach 
and withdraw its forces and its proxies from the occupied territories. 
Stronger, high-level United States diplomatic engagement, working in 
close coordination with Kyiv, Berlin and Paris, may be necessary to 
achieve real progress and avoid another intractable frozen conflict. 
Time is of the essence.
    If the Trump Administration wants to pursue improved relations with 
Russia, solving the conflict in Eastern Ukraine should be the litmus 
test and the essential first step. Any ``bargain'' with Moscow should 
be contingent on full implementation of the Minsk agreements and 
restoration of Ukrainian sovereignty over the Donbas, including control 
of its international borders. Anything less would reward Russian 
aggression and only embolden Putin to further destabilize his 
neighbors. Trading away Ukraine's sovereignty and independence in 
return for greater cooperation against ISIS would be a devil's bargain, 
and it would ultimately fail: the 45 million people of Ukraine will not 
quietly accept being consigned to a Russian ``sphere of influence.'' 
Indeed, if Putin remains intransigent, we and our Allies should be 
prepared to increase the pressure on Russia even further by tightening 
sanctions and stepping up military and economic assistance to Ukraine.
                   challenges to transatlantic unity
    Pursuing a strategy along the lines suggested above would provide 
the foundation for engaging Russia in a dialogue that upholds our 
values and restores the credibility of the international rules-based 
order. But as noted previously, success depends on Western unity and 
resolve. That unity is being tested not just by external challenges 
like Russia and ISIS; it is also threatened from within.
    NATO has not been seriously affected by Brexit or the refugee 
crisis, but Alliance cohesion and solidarity could be challenged in 
several ways: by a failure of Allies to follow-through on rectifying 
the imbalance in defense spending; or by an inability to maintain the 
balance in addressing threats from the East and the South that is 
essential to Allied cohesion. The latest, and perhaps the most serious, 
challenge comes from a Turkey that seems to be drifting away from 
Western values and developing closer links with Moscow. As in the past, 
U.S. leadership will be essential in holding NATO together and ensuring 
that decision-making by consensus is not paralyzed.
    For its part, the European Union will be increasingly preoccupied 
by negotiations over the terms of Brexit, while struggling to manage 
popular dissatisfaction over illegal migration and feeble economic 
growth. The perception that the Trump Administration is skeptical about 
the whole European project could exacerbate internal divisions within 
Europe and provide openings for Russian mischief-making. The United 
States needs to demonstrate, in word and deed, that it supports a 
strong, united Europe as an indispensable partner in dealing with 
Russia and other challenges, even as we work to overcome differences 
over trade and refugee policy.

    Chairman McCain. Thank you, Ambassador.
    General Breedlove and Ambassador Burns, Ambassador Vershbow 
just mentioned the need to provide lethal defensive weapons to 
Ukraine. Do you agree with that, Ambassador Burns?
    Ambassador Burns. If Russia continues its aggression in 
eastern Ukraine or stimulates another significant escalation of 
fighting, I do.
    I think that what is important, though, is--all of us I 
think emphasized the significance of alliance unity and to make 
sure that we are working these issues with our key NATO 
partners as well, as well as with the EU, because we want to 
just keep our eye on the importance of sustaining sanctions as 
well, the economic sanctions that exist, until there is full 
implementation of Minsk.
    Chairman McCain. Would you not agree that from a morale 
purposes alone, much less capability, that it would be helpful 
to give lethal defensive weapons to Ukrainians?
    Ambassador Burns. I think it would, again especially in the 
face of an escalation of Russian-inspired fighting in eastern 
Ukraine.
    Again, the only thing I would emphasize is the importance 
of very close consultation with our allies so that this does 
not become a contentious source of debate and an opportunity 
for Putin to drive wedges between us and our NATO and EU 
allies. That is all.
    Chairman McCain. Good point.
    General Breedlove?
    General Breedlove. Sir, I believe that every nation has a 
right to defend itself, and my recommendation on this has not 
changed since when I was in my previous capacity and I do 
support that.
    Chairman McCain. Ambassador Vershbow, there is a little 
country called Montenegro. There are only 650,000 people there. 
As of February, 23 of the 28 member states approved the 
accession of Montenegro into NATO. Why is the accession of 
Montenegro so important, and why does Russia oppose the 
accession of such a small country?
    Ambassador Vershbow. Well, Mr. Chairman, I think the number 
is now up to 25, and I hope the U.S. will join the ranks of 
those who have ratified.
    I think Montenegro's accession is important, in part, as a 
matter of principle that since the end of the Cold War, we have 
taken the position, together with our allies, that countries 
should be able to seek membership in NATO if they can meet the 
criteria and contribute to stability in their region and in 
Europe at large. We put them through a lot of rigorous reforms 
and defense improvements to meet those criteria. Montenegro did 
what we expected of them.
    I think it also is a contribution to stability in the 
western Balkans, which is still unfinished business. We still 
see internal divisions in Bosnia. We still see problems now in 
Macedonia. So I think setting an example that countries that do 
do their homework, meet the criteria, contribute to stability 
in their neighborhood can become members of NATO, even if they 
do not bring a huge amount of defense capability to the 
Alliance.
    Russia opposes this because they I think are trying to draw 
a red line in the face of any further NATO enlargement. They 
are most concerned about Ukraine and Georgia, but I think they 
see the Balkans as an area of traditional influence for Russia, 
and they are using all kinds of means, including the coup that 
I mentioned, to detail Montenegro's accession even at this late 
stage of the process.
    Chairman McCain. Even to the point where they tried to 
orchestrate a coup to overthrow the democratically elected 
government.
    Ambassador Vershbow. Indeed, and even Serbia, which is 
ambivalent about NATO, I think was quite alarmed that their 
territory was used to hatch a plot against a neighboring state 
that they consider a friend and not an enemy.
    Chairman McCain. Ambassador Burns?
    Ambassador Burns. No. I agree absolutely. I think it is 
important for the United States to follow through and join our 
other NATO allies in approving Montenegro's accession.
    Chairman McCain. Some of us believe, General Breedlove, 
that Vladimir Putin may test us more by further misbehavior in 
Ukraine. If that happens, which there are some indications of 
that already, what should be our response?
    General Breedlove. Chairman, thank you.
    An axiom remains from my childhood behavior with my father, 
and that is we should not reward bad behavior. I believe that 
we should better equip Ukraine to meet those challenges.
    I think Ambassador Burns made a very important point too. 
We need to work with our allies to bring them along with us to 
the same conclusion and set its support. I have offered 
thoughts in the past about defensive weaponry and ways that we 
can help Ukraine to have more resiliency in the face of this 
tough pressure, and I think those are all still very valid.
    Chairman McCain. Senator Reed?
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Gentlemen, thank you for your outstanding testimony. Very 
insightful and extremely timely.
    One issue I think we all agree upon is that a military 
response is necessary, strengthening NATO--and I joined the 
chairman with his leadership in advocating for providing 
defensive weapons to Ukraine several years ago. That is 
necessary but not sufficient. What we also require is an 
economic and geopolitical strategy.
    I go to some of the points that were raised by all of the 
panelists. It seems to me that as Ambassador Vershbow pointed 
out, the Ukraine is a key test of our resolve. There it is not 
just defensive weapons, it is significant aid for political 
capacity building, anti-corruption efforts, diversifying the 
energy from Russian supply exclusively to non-Russian supply. 
That calls for an all-of-government approach and significant 
resources. Perhaps the analogy is after World War II, it just 
was not lots and lots of U.S. soldiers and airmen, but it was 
the Marshall Plan that helped. Although that might be out of 
our scope at the moment, we have to make significant 
commitments beyond just military support.
    The point again that the Ambassador made about the 
weaknesses or the perception in Europe of disarray, EU under 
pressure, Brexit. It is alarming when we have American voices 
sort of cheering on Brexit, cheering on sort of some elements 
that would encourage the dismemberment of the EU rather than 
its strengthening.
    So I would ask all of you just to comment in general about 
this notion of necessary military support, but we have to go 
the extra step across our entire government. General Breedlove?
    General Breedlove. Sir, I fully agree, and what we talk 
about occasionally is using all the elements of our Nation's 
power. We use a simple model in the military. We are taught 
DIME, diplomatic, informational, military, and economic. 
Certainly Russia uses all of those tools in putting pressure on 
Ukraine, and our not only the United States, but the Western 
response should contain all of those.
    As you mentioned, considering how we can help nations like 
Ukraine who are under pressure in that more broad front, I 
completely agree that the answer does not only lie in the 
military.
    Senator Reed. Ambassador Burns?
    Ambassador Burns. No. I absolutely agree. I think that kind 
of a comprehensive strategy is essential, and I would just add 
two points, I think one kind of strategic and more specific to 
some parts of Europe.
    The strategic point is that I think now more than ever, it 
is important for the United States to invest in our 
transatlantic relationships at a moment when our partners and 
our allies in Europe are under pressure almost any place you 
look on the geographic compass from the west, the issue of 
Brexit; from the south, whether it is terrorism or migration 
flows; and from the east, a resurgent Russia. It is very 
important for us to invest in that relationship and recognize 
its significance to almost anything the United States wants to 
achieve in the world.
    The second and more specific comment has to do with what 
you said about Ukraine and our earlier conversation about the 
Balkans. I think what is at stake in Ukraine is enormously 
important for the United States and for our European allies. It 
is partly about security and defense, but it is also partly, 
just as you said, Senator Reed, about the economic and 
political health of Ukraine. It is true the Ukrainian 
leadership has to do its own part and has to climb out of a 
hole, which in part is self-inflected in terms of corruption 
over the years. But you now have a leadership that is beginning 
to do that, and we need the kind of sustained focus and 
resources from the United States, from Europe that is going to 
help Ukrainians to help themselves at this critical moment. I 
think the same is true in the Balkans where we have to keep our 
eye on the ball as well.
    Senator Reed. Ambassador Vershbow?
    Ambassador Vershbow. Thank you.
    I would agree with my colleagues that supporting Ukraine 
and all of Russia's neighbors that are targeted by Putin for 
his sphere of influence deserve our support, and that is a 
comprehensive effort, military, political, economic, helping 
them fight corruption. And, of course, Ukraine in the last 
three years, despite having to fight an undeclared war in its 
eastern provinces, has made more progress on reform than in the 
previous 20-plus years since independence in 1991. A lot of the 
support they are getting for that effort is coming from our 
European partners. So it is not just the U.S. that is trying to 
help them shore up their security, their resilience, their 
economy and to fight corruption, which is the real big 
challenge that they face.
    So the cuts in State Department resources for these sorts 
of programs are misguided. This is not charity, but it is 
investing in greater stability and security in Europe because a 
more resilient and secure Ukraine is really the best response 
to Putin's aggression. The more that Ukraine succeeds in 
establishing a democratic society with a robust economy, the 
more it will send a signal to the people of Russia that the 
kind of system that they are stuck with under President Putin 
is less desirable than going back to the path of openness, 
reform, and better relations with the West at the same time.
    Senator Reed. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Wicker?
    Senator Wicker. Well, I appreciate the excellent testimony, 
and I agree that the more Ukraine succeeds, the better off it 
is for us in the United States and the West, and I think it is 
one of the most profoundly important issues that we face in the 
next year or two.
    Let me see if I have discovered a little bit of a distance 
between our witnesses today. Ambassador Burns, you took most of 
your testimony from an article that you previously wrote in the 
New York Times. You have four steps, and then you went beyond 
that in your oral testimony today to mention that, 
nevertheless, in spite of everything Russia has done and all of 
our problems, there are still areas of cooperation that we 
could reach.
    So would you restate that and be more specific? Then I will 
ask General Breedlove and the Ambassador to respond to this 
idea that you have.
    Ambassador Burns. Sure, I would be glad to, Senator. My 
only point is that I think cold-bloodedly from the point of 
view of not only American interests but Russian interests as 
well and wider international interests, it is important for us 
to continue to engage with Russia on issues like the safety and 
security of nuclear materials, the danger of nuclear terrorism, 
the danger of nuclear and radiological materials getting in the 
wrong hands. Those are issues where I think the United States 
and Russia, precisely because of our history and our nuclear 
arsenals and our capability, really do have unique 
responsibilities.
    I think as General Breedlove said, I think it is also 
important for us, even as we did at the worst moments of 
tension in the Cold War, to sustain a habit of military-to-
military communication. So we are avoiding inadvertent 
collisions whether it is over the Baltic States or in the 
Middle East or elsewhere. I think there is practical in that 
for us, whatever ever our profound differences with Russia on 
many other issues.
    Senator Wicker. General Breedlove, are you on the same page 
there?
    General Breedlove. Yes, Senator. There is no air between us 
and those conversations. I would add things like transparency 
and exercises. Just yesterday, another major SNAP exercise in 
Crimea aimed at destabilizing Kyiv. Loose nuclear materials. 
Senator Nunn is working on that hard. It is a place where we 
can absolutely find, I think, some common ground, and believe 
in CT [counter-terrorism] in many ways. They are as worried 
about what is coming out of Afghanistan and the Balkans as we 
are. So I do believe, again, reestablishing trust in an 
incremental way, we need to sit down and work on these things.
    Senator Wicker. Ambassador Vershbow, you are on the same 
page there?
    Ambassador Vershbow. Yes, Senator. I would agree that even 
with these fundamental differences, we have to try to manage 
the relationship, as Ambassador Burns said. I think, in the 
short term, maybe the most we can do, which is try to reduce 
the risks of some accidental incident escalating out of 
control, trying to persuade the Russians not to give their 
pilots the freedom to provoke our ships and surveillance 
planes, more transparency, bringing more observers to exercise 
it so we do not miscalculate in a crisis.
    There may be geopolitical issues where we could try to 
cooperate with Russia although, even as we have heard, fighting 
ISIS is not as clear as it might seam, but the Russians really 
have the same objectives in Syria or other parts of the Middle 
East as we do. But we should test Putin on whether he is 
actually able to contribute something real, and we do not have 
to trade the sovereignty of Ukraine in order to get him to 
cooperate on ISIS. If he wants to do that, he should do it on 
its merits.
    Senator Wicker. Okay. Thank you very much.
    Will one of you comment or all of you comment on the value 
of OSCE [Organization for Security Cooperation in Europe] in 
all of this? OSCE is a 57-nation group. The United States and 
Canada are members. It is consensus-based, and it has been 
challenged in recent years by a far more aggressive Russia. The 
organization's highest profile engagement remains the fielding 
of an 1,100-person special monitoring mission to Ukraine, an 
unarmed civilian mission that serves as the international 
community's eyes and ears in the conflict zone. Of course, 
there are many other duties of OSCE. But what value should we 
place on OSCE's continuing role in the European security 
architecture? Ambassador Burns?
    Ambassador Burns. Yes, I am glad to start, Senator.
    I guess I would say for all the limitations of the OSCE as 
a big, sprawling institution, as you described, I think it has 
continuing value, first because it embodies some of the core 
values that we share with our European allies and partners in 
terms of sovereignty of states, you know, the inviolability of 
borders so that----
    Senator Wicker. Those Helsinki principles.
    Ambassador Burns. Right, so that big states do not just get 
to grab parts of smaller states just because they can, and so 
for all the limitations of the institution, I think its core 
value is because it really does embody the Helsinki principles, 
and it is important for us to continue to invest in that. It 
also does good work in terms of the monitoring function that 
you described in Ukraine and elsewhere.
    Senator Wicker. General?
    General Breedlove. Senator, if I could just add a much more 
tactical--and I am sorry for that--observation. There are 
limits and I could not agree with that more. But occasionally 
with some of the fake news that was created in the Donbas and 
other places as Russia invaded, even though OSCE was challenged 
in it, often it was the source of the real news of what was 
actually going on on the ground. Again, it has challenges but 
it also provides some pretty good input for us occasionally.
    Ambassador Vershbow. I would agree that OSCE still has 
value, particularly because of the norms and values that it 
upholds, even though the Russians are violating a lot of those 
right now. But it gives us a basis on which to challenge their 
misbehavior.
    Its practical value may have declined because the Russians 
have sort of turned against OSCE. They do not really like its 
efforts to promote free elections and transparency in the 
political processes since that is the antithesis of what their 
system now represents.
    The special monitoring mission in Ukraine I think has been 
very courageous in trying to make the disengagement work even 
half well. But even as the Russians authorize missions like 
that, they shoot down the UAVs that have been purchased by that 
mission. They threaten some of the monitors. They have denied 
them access to sensitive areas when they are bringing lots of 
weaponry. So OSCE is challenged, but I do not see any 
alternative right now in trying to manage a conflict like in 
eastern Ukraine.
    Senator Wicker. Thank you.
    Chairman McCain. Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you all for being here this morning.
    Ambassador Vershbow, you talked about the importance of 
shoring up the European unity, and NATO is clearly one of our 
ways to do that, our support for NATO. Do we think that 
Europeans or NATO members will be concerned when they hear the 
report that came out this morning that Secretary of State 
Tillerson is going to skip the next NATO meeting to head to 
Russia?
    Ambassador Vershbow. Well, Senator, I think there is some 
concern about that. I think hopefully there will be other ways 
for him to engage at an early opportunity with his counterparts 
from the NATO countries. Many of them are coming to Washington 
in a few weeks for a counter-ISIS ministerial meeting. But 
still, I would say yes--I am a NATO veteran and NATO junky--
that the presence of the U.S. Secretary of State, particularly 
his first opportunity to join his counterparts at a 
ministerial, is something that should not be passed up, 
especially when we face so many challenges. But I think the 
more basic question is consulting first with your allies before 
you engage with the Russians. So hopefully there will be other 
ways that he can do that.
    Senator Shaheen. Thank you.
    General Breedlove, actually I think all of you referenced 
the concern about our nuclear arsenals, both ours and Russia's, 
and the potential for reducing those arsenals. I thought your 
idea of a summit was particularly interesting, General 
Breedlove.
    What kind of message does it send as we are trying to think 
about how we reduce the nuclear threat when we have the 
President of the United States talking about an arms race and 
saying, ``Let it be an arms race,'' so committing to an arms 
race against Russia?
    General Breedlove. Ma'am, if I could just talk to the 
basics a little bit. Clearly we have a Russia that has built 
the discussion of use of nuclear weapons into its escalate to 
deescalate doctrine. It speaks that often and writes often that 
nuclear weapons are a logical extension of conventional 
warfare, things that we would not want to be on the table.
    I think the appropriate response from us and our NATO 
allies is to remain creditable and ready and to have the policy 
in order to present a clear affront to those thoughts from 
Russia. What I thought we should do and what we have done I 
think well in the past in NATO is to try to completely convince 
that we are ready to respond if required, and I think that is 
the policy into the future.
    Senator Shaheen. What should we be thinking about in terms 
of Russia's violations of the INF Treaty?
    General Breedlove. Ma'am, my message on this has not 
changed. We cannot let that go unchallenged. I tell you I have 
great confidence in our new Secretary of Defense and in Joe 
Dunford, who I have worked with before. My guess is that they 
will modify or come out with a new approach.
    But in the past, I think our former Secretary Ash Carter 
testified in front of this committee and laid out a framework, 
which I completely agreed with. I think that we have not really 
started down that framework, and we either should or allow our 
new leaders to modify and put theirs out.
    But the bottom line is, again, we cannot let bad behavior 
go unchallenged. This was not done by accident and we need to 
respond.
    Senator Shaheen. Thank you. I share that view.
    Last December, we had folks testifying in response to what 
we then learned was an emerging story about the Russian cyber 
attack on our elections. One of the points that was made was 
that Russia is looking at not just a military buildup, not just 
pushing the envelope in eastern Europe in terms of its invasion 
of Ukraine, but it is also looking at a huge propaganda buildup 
in terms of support for RT and its other channels of 
communication. It is also looking at disrupting Western 
elections as part of a deliberate strategy to undermine the 
West.
    Ambassador Burns, can you comment on that--you were clear 
that you think we ought to respond to Russia's actions--on what 
else we should be thinking about as we look at the French and 
German elections upcoming? I am out of time, so maybe you could 
quickly respond.
    Ambassador Burns. I will be very brief.
    I mean, I absolutely agree with you on the seriousness of 
not only of the Russian hacking of our recent elections, but 
also what is at stake across the European elections this year 
as well. I think this is part of a deliberate strategy on the 
part of Russia. I think we are in the process not only of 
taking steps ourselves which were announced by the last 
administration, which are important to sustain the 
investigations to get to the bottom of this remain extremely 
important. Then I think working with our allies to shore up 
their own capacity to resist this kind of disruption is also 
very important this year.
    Senator Shaheen. Thank you. Thank you all.
    Chairman McCain. Senator Ernst.
    Senator Ernst. Thank you, Mr. Chair.
    Gentlemen, thank you very much for being with us today and 
your continued service to our country, as well as your enduring 
commitment to forwarding or advancing our shared interests with 
the people of Europe. I do think that that is very, very 
important, and in the face of the resurgent Russian threat, I 
think we can all agree that America needs your leadership as 
well and expertise in these areas. So thank you for being here.
    I am going to go back just to comment about Ukraine. 
Congress gave the President authority to give lethal assistance 
to Ukraine, and just last month, I joined a number of my Senate 
colleagues in a letter to President Trump asking him to 
expedite the use of that authority. I do think that that is 
very important. We should honor our commitment to Ukraine and 
utilize lethal assistance to them.
    Now, General Breedlove, we have had a discussion about our 
initiatives in Europe before. I believe that physical presence 
is oftentimes the best reassurance, and as part of the European 
Deterrence Initiative and Operation Atlantic Resolve, Congress 
authorized $3.4 billion to enhance American presence in the 
region. If you could, just describe to us what types of 
presence that we might need, what certain troop levels, what 
types of forces. Does that include the National Guard or 
Reserve, naval forces, et cetera? And then also maybe, General, 
if you could just let me know whether you think rotational 
forces are appropriate or whether we need to have a more 
permanent presence.
    General Breedlove. Thank you, Senator. I could talk a long 
time. I will try to be as brief as I can but get to your 
questions.
    The $3.4 billion--and first of all, may I thank this 
committee and others who have worked on these ERI [European 
Reassurance Initiative] initiatives across the last two years. 
They are vital. Twenty years as the chairman called of hugging 
the bear. We changed our orientation in Europe, and I believe 
it is now absolutely vital that we reevaluate since we do not 
have that strategic partner that we looked to have in the past.
    The $3.4 billion does, as did the previous years, a broad 
set of things from improving infrastructure, financing 
rotational exercises and forces, and actually moving some force 
to Europe. It is a broad approach, and I think that is right 
and proper because we do need to relook at how we can reinforce 
Europe. We are not in the practice anymore of arriving with 
ships, transloading rail cars, et cetera, and we need to get 
back to that.
    Ma'am, I have testified in front of this committee before 
that I believe our presence in Europe is not yet appropriate. I 
used to say it is the road through Warsaw not to Warsaw, 
meaning the agreements that we made in the Warsaw Summit were 
the next logical step but probably not the last step.
    I have also not changed my mind that I believe actual 
presence, permanent presence----
    Senator Ernst. Permanent presence.
    General Breedlove.--is the best answer. But I believe we 
are realistic in that that may not be a future that we can see. 
We need to have the appropriate balance of permanent forward 
forces, rotational forces, and prepositioned materials so that 
we can rapidly reinforce, prepositioned materials that our 
great Guard and Reserve forces can rotate on, et cetera. So I 
believe it is a balance as the way to get to best solution that 
we can afford and move forward with in the future.
    Senator Ernst. Very good. I appreciate that.
    Ambassador Burns, you have stated that we must reassure our 
European allies of our absolute commitment to NATO. I agree 
with that. I also think we need to reassure our non-NATO 
countries that are also good friends to the United States, and 
that is why I am proud of the Iowa State Partnership Program. 
We are engaged with Kosovo. That is why I co-chair the Senate 
Albanian Issues Caucus.
    How else can we reassure countries in the Balkans and 
Caucasus, those who aspire to join NATO, that they have our 
support?
    Ambassador Burns. I am sure Ambassador Vershbow can add to 
this as well. But as you well know, there are a number of NATO 
programs already that we work with partner countries, and I 
think it is important to sustain those.
    A lot of this is also just diplomatic attention as well in 
the Caucasus, even as far afield as Central Asia, as well as in 
the Balkans, the day in/day out effort to pay attention, to be 
able to sustain assistance programs, not just in the security 
area but in other areas as well, that are a tangible 
demonstration of our commitment to the health of those 
societies at a moment when, just as you said, Senator, I think 
the Russians are busily trying to undermine prospects for the 
future of many of those societies.
    Senator Ernst. Ambassador, did you have any further 
comment?
    Ambassador Vershbow. I agree with that. I think much more 
vigorous diplomatic engagement by the United States is needed 
because things are unraveling internally in some of the 
countries, Macedonia, Bosnia in particular. The situation 
between Kosovo and Serbia is also deteriorating, and all of 
this is because the Russians are throwing a lot of salt in the 
wounds and trying to exploit historic tensions and grievances.
    The European Union spends a lot, and they are actively 
engaged diplomatically, but I think the countries in the region 
still look to the U.S. because of our role in ending the wars 
in the 1990s. I think strong United States leadership, working 
with the Europeans, is essential to hold off the Russian 
meddling and help countries like Macedonia finally get back on 
the path of European integration, NATO membership, which they 
have been struggling with for more than a decade and a half.
    Senator Ernst. Thank you, gentlemen.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Warren?
    Senator Warren. Thank you, Mr. Chair.
    Thank you for being here today.
    Right now, everybody knows that the American intelligence 
community has concluded that the Russians conducted successful 
cyber attacks against the United States last year in order to 
influence our election. But people may not know that we are not 
Russia's only target. A decade ago, some of NATO's Baltic 
States also endured cyber attacks, which were believed to have 
originated in Russia.
    Now, in 2014, NATO updated its cyber defense policy to 
clarify that cyber attacks are covered by article 5, NATO's 
collective defense clause, meaning an attack on one is viewed 
as an attack on all. But the Alliance has not publicly 
clarified the threshold at which a cyber attack would trigger 
article 5 or describe any of the types of responses that it 
might employ.
    So, General Breedlove, I want to thank you for your work 
strengthening the NATO alliance. But I want to focus in this 
particular area. Do you think the Russians are taking advantage 
of NATO's apparent reluctance to determine when a cyber 
intrusion is an armed attack and to make it clear when we will 
respond?
    General Breedlove. Senator, thank you for the question, and 
the thrust of your question I think is spot on in that we need 
to better understand and better articulate to the world 
possibly where this all stands.
    I think this is good new/bad news, and I will try to be 
short. The good news is that three days before I started my--or 
three days after I started my term as the SACEUR was the first 
doctrine signed by NATO. So literally in the last three and a 
half years, we have come a long way. Now NATO does have some 
policy and doctrine and a wonderful center at Talinn, Estonia, 
if you have not been there, to fight this, one of the real 
capabilities of NATO. That is the good news. We have come a 
long way.
    Senator Warren. Right, and the bad news?
    General Breedlove. The bad news is there still is, as you 
have correctly pointed out, some definitive things that need to 
be laid out and we are slow getting to those.
    Senator Warren. Do you want to say a word about what those 
are?
    General Breedlove. Well, ma'am, I have been critical that 
we do not have an offensive policy in NATO. It is completely 
defensive. As a fighter pilot, I think the best offense is a 
missile in the air headed in the other direction.
    Senator Warren. All right. Thank you very much. I 
appreciate it.
    Russia will undoubtedly continue to use cyber tools to try 
to interfere with and destabilize our NATO allies. If we are 
ever going to deter that behavior, then we need to strengthen 
the Alliance's capabilities and make clear what our response 
will be both within the NATO alliance and make that clear to 
the Russians.
    I have one other question I want to ask about, and that is 
the Syrian civil war started six years ago this month, and the 
humanitarian crisis there has pushed massive numbers of 
refugees to Europe. I saw some of this up close a couple of 
years ago when I visited a refugee intake center in Greece and 
a refugee resettlement center in Germany. I met with refugees 
who had risked their lives on long and dangerous journeys from 
many different countries.
    European countries have struggled to deal with this surge. 
Thousands of refugees remain stuck in camps and detention 
centers. This is totally unsustainable.
    Ambassador Burns, setting aside the obvious need to try to 
get to the root causes of the crisis, what steps beyond 
providing for humanitarian aid and supporting maritime search 
and rescue efforts should the United States take to enhance 
Europe's efforts to absorb refugees and migrants?
    Ambassador Burns. That is a really difficult question, as 
you know, Senator. I mean, I think just the sheer magnitude of 
the humanitarian problem is going to require continued 
expenditure of resources and the resources of our European 
partners for some time to come, and that is where some of the 
foreign assistance cuts that appear in the administration's 
budget I think are really, really troublesome.
    You are right. The core challenge is to move towards some 
kind of political transition in Syria because of the simple 
reality that unless the 70 percent of the population of Syria 
that is Sunni Arab feel a stake in their future, Sunni 
extremist groups, whether it is ISIS or some other acronym, are 
going to have fertile soil in which to destabilize Syria and 
create more human suffering.
    Senator Warren. So let me ask about that. Is it helpful or 
harmful if the United States dramatically reduces its admission 
of refugees and migrants?
    Ambassador Burns. I think it is undoubtedly harmful, and I 
am entirely aware of the importance of ensuring the security of 
American citizens in our own society. I am very familiar with 
the processes that are employed to deal with Syrian refugees. 
They are as strict and comprehensive as any that I have seen. 
But a lot of this has to do with the leadership we demonstrate 
in the world, and when we are moving in a different direction 
than a lot of our European allies and partners are, it does 
send a very complicated signal.
    Senator Warren. I appreciate your point on this because it 
seems to me that for our security, for Europe's security, and 
because we are a decent and compassionate people, that we need 
to help Europe manage the huge flow of refugees. But as you 
say, we also need to lead by example here. The United States 
has always been a beacon of hope for people around the world, 
refugees and other troubled groups, and the last thing we 
should be doing is continuing to push for illegal Muslim bans 
that betray our values and our Constitution and do nothing to 
keep us safe.
    Thank you, Mr. Chair.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Thank you, gentlemen, for appearing today 
and for your many years of long service to our country. You 
have all been around the block once or twice in Europe and 
Russia.
    I know someone else who has been around the block once or 
twice with them is Bob Gates. In his first memoir of his time 
at the CIA [Central Intelligence Agency], he writes of the many 
specific policy questions that, in particular, President Carter 
and President Reagan faced in places like Central America and 
sub-Saharan Africa and the Middle East and pushing back against 
Soviet aggression. But he puts as much or more weight on what 
he refers to as the correlation of forces, long-term trends 
that set the relative power of the United States against then 
the Soviet Union and today Russia.
    So he talks, for instance, about Jimmy Carter championing 
human rights within the Soviet Union and the Warsaw Pact which 
undermined the legitimacy of their regimes, his down payment on 
a defense buildup after the Soviet Union invaded Afghanistan, 
and in particular, Ronald Reagan's efforts to rebuild our 
military to expand our nuclear forces to deploy INF forces to 
Europe to counteract the Soviet Union's deployment, then 
ultimately the strategic defense initiative, which he said kind 
of culminated all of the trends the Soviet leaders had feared 
for so long, you know, a growing Western economy, technological 
advantages, military strength. That, while not the cause of the 
ultimate downfall of the Soviet Union, it was kind of the 
ultimate symbol of what the Soviet Union had feared for so 
long.
    I would just like to get your thoughts just going down the 
row on how important, on the one hand, those specific bilateral 
or policy questions are today--you might say Ukraine or Georgia 
or what have you--versus the broader correlation of forces 
between the United States and Russia. General Breedlove?
    General Breedlove. Senator, I will probably disappoint 
because I do not think you can discount either. I think they 
are both incredibly important. As we talked a little bit about 
earlier, I think that our Nation's power is not just its 
military. It is broader than that. It is our values, our 
diplomatic position in the world, the fact that we try to get 
the right message out in our information campaigns. We need a 
strong military, and of course, our economy is incredibly 
important.
    On the strictly military side, I obviously wore the cloth 
of our Nation for 39 years, and I believe that we need to 
remain strong and credible and be seen as strong and credible 
in the world. I see that as a specific line of endeavor in our 
future.
    Senator Cotton. Ambassador Burns?
    Ambassador Burns. No. I absolutely agree. I mean, I think 
leverage is essential in diplomacy especially in dealing with 
adversarial relationships like the United States-Russia 
relationship. I think that is why it is especially important to 
invest in our alliance system as well because that is what sets 
us apart from Russia and China and other major powers. I think 
that continued focus on especially our transatlantic alliance 
is extremely important in that correlation of forces.
    Senator Cotton. Ambassador Vershbow?
    Ambassador Vershbow. Just to echo my colleagues, I agree we 
need to look at American power in the broadest sense of the 
word, military, political, economic, and our moral power, the 
values that we represent.
    As Bill Burns just said, having democratic allies who share 
those values and are prepared to share risks with us is a real 
asset for us in countering the Russian threat and other threats 
around the world. So we have to strictly think of the 
correlation of forces in a broad sense and try to use our 
allies as force multipliers in dealing with threats that we 
see, particularly the challenge from Russia with all its 
different dimensions.
    So in that sense, lots of lessons can be drawn from the 
experience of the late Cold War that you described. Peace 
through strength may be a cliche but it still is valid in 
today's world.
    Senator Cotton. To our two Ambassadors, Bob Gates described 
George Shultz and his role in the 1980s, someone who often came 
in for criticism from some of his fellow cabinet members of 
perhaps being too soft or conciliatory towards Russia, even 
though he supported many of these issues that we have described 
as the correlation of forces like the deployment of INF forces 
to Europe but also encouraging Reagan and ultimately prevailing 
upon Reagan to proceed with various sets of talks or 
negotiations with Russia to maintain open lines of 
communications. Maybe most notably a few weeks after the KAL 
[Korean Air Lines] 007 shoot-down outside of Korea, George 
Shultz convinced the President that he should go forward with 
consultations in Europe with his Russian counterparts.
    How important is it that we maintain such an open line of 
communication even while we resist and confront Russia and its 
aggression throughout Europe and the Middle East?
    Ambassador Burns. I think it is an essential part of a 
successful strategy. I mean, we need to be tough-minded on 
issues, just as you said, Senator. We need to be mindful of the 
importance of building our leverage, especially through our 
alliances. But we also ought not to be shy about engaging as 
well and being equally direct in those kinds of channels of 
communication as well so that we are managing a relationship 
that is inevitably going to be complicated. We are looking for 
those areas where we might be able cold-bloodedly to cooperate, 
but we are able to push back in a lot of other areas as well.
    Ambassador Vershbow. Absolutely. As difficult as the 
Russians may be and as hostile as they may be in a lot of 
areas, we have to talk to them. We have to try to find ways to 
persuade them to change their policies or offer ways out of 
some of the impasses that we face.
    I think that is why George Shultz was one of the most 
successful Secretaries of State--I had the honor of working 
with him for a few years--because he was very tough when we 
still needed to be tough with the Russians in the early 1980s, 
but when the changes began under Gorbachev and Foreign Minister 
Shevardnadze, Shultz recognized there was an opportunity to 
begin to change the relationship to move away from Cold War 
confrontation, reduce nuclear weapons, and helped President 
Reagan seize those opportunities.
    So we have to be alert to possible cracks in the facade 
that Putin projects. I personally am skeptical that there are 
that many opportunities out there, but if we can get past this 
current Ukraine crisis and use United States diplomatic 
leadership backed by real leverage, including the possibility 
of lethal assistance to Ukraine, if Putin does not play ball, 
we might be able to kind of get to a better place and then 
begin to rebuild step by step the kind of partnership that 
George Shultz was seeking in the late 1980s under President 
Reagan.
    Senator Cotton. Thank you all.
    Chairman McCain. Senator Peters?
    Senator Peters. Thank you, Mr. Chairman.
    Thank you to each of our panelists for your leadership in 
this area over many years and for the discussion here today.
    In my first question, I want to return back to an issue 
that has been discussed previously related to the cruise 
missile deployments in violation of the Intermediate Nuclear 
Forces Agreement, which I find very troubling, and from 
listening to the testimony of all three of you, I think all of 
you agree with that. I think it is interesting and would like 
to have your comment that while the Russians are moving forward 
in violation of that treaty, on the one hand; on the other 
hand, when it comes to the START [Strategic Arms Reduction 
Treaty] treaty, they seem to be in compliance there. There is a 
disconnect between compliance with one treaty and another. I am 
wondering what is behind that. What do you think may account 
for that?
    Actually, General Breedlove, you mentioned the Russian 
strategy to escalate to deescalate, which is a very troubling 
strategy. Is it perhaps related to that as to why they are 
deploying these cruise missiles?
    General Breedlove. I am going to defer, Senator, on the 
piece about the START to my more learned colleagues.
    What I would like to do is maybe address your latter 
question and leave the other for them.
    Senator Peters. Right. Thank you.
    General Breedlove. I think there are multiple reasons why 
the Russians are fairly blatantly violating the INF. I think 
they have expressed for a long time displeasure with our 
deployment of missile defense into Europe. There are two sides 
to every story. While I do not agree with their position, I can 
understand that they believe they have told us and told us and 
told us, and now they are bringing some tougher tools to the 
table to try to address some of those issues.
    Secondarily, I think that they know that this is a very 
divisive discussion inside of NATO, and I agree with my 
colleagues, who have both, I think, said that one of Mr. 
Putin's greatest desires is to bust up these Western 
organizations so that he can deal with Western nations 
individually vice with large organizations. So I do believe 
that they have several reasons that they are proceeding on the 
INF, and again, maybe I do not agree with those reasons, but we 
have to understand what they are thinking along those lines.
    Senator Peters. Ambassadors?
    Ambassador Vershbow. I think it is partly about missile 
defense that the Russians are violating the INF Treaty, but I 
think it more reflects a longstanding grievance that they have 
had that other countries in the world such as China, Pakistan 
have intermediate-range missiles which could reach Russia, and 
they have no missile of the same capability to deter and 
respond. It is sort of not a very convincing argument because 
they have their intercontinental systems which can be used in 
nuclear scenarios against those countries.
    But I think they may also believe they can get away with 
this violation because of the ambiguity of some of the 
technologies involved and assessing what is the maximum range 
of a cruise missile compared to its overall weight and payload. 
So they may think that they can get away with cheating, and we 
cannot let that happen. So I think in terms of responding, we 
need to kind of first look at what is the enhanced threat that 
we face and find ways to neutralize that threat. It does not 
mean it is tit for tat. We may not need to violate the INF 
Treaty ourselves. There may be alternative systems, both 
defensive and offensive such as air-launched cruise missiles 
deployed forward in Europe that could neutralize any military 
gains that the Russians could perceive from this violation.
    But it does not bode well for long-term stability if they 
are prepared to cheat. The New START agreement is still being 
complied with. Let us hope that they do not violate that one 
too.
    Ambassador Burns. Senator, the only thing I would add is on 
your second question about escalate to deescalate, I agree with 
you on the seriousness with which we ought to view that issue 
because if Russian doctrine changes to the point we are faced 
with a conventional inferiority, you know, they are willing to 
resort to early use of battlefield nuclear weapons, that 
creates a whole new area of potential tension and instability. 
It is another of the reasons why we ought to be engaging with 
them in what used to be called strategic stability talks, first 
to try to get to the bottom of what it is that they have in 
mind and then, second, working with our allies to be very, very 
clear and blunt about our concerns about that and about the 
dangers of it.
    Senator Peters. Given that response, is it reasonable to 
think this weapon actually is more effective in that strategy, 
which is certainly very frightening, to escalate/deescalate? 
You are more likely to use a weapon, this cruise missile, than 
you would a strategic missile. Is that another reason why they 
would want to deploy it?
    General Breedlove. Senator, I think that is what they write 
about. It is another step and rung in the ladder of tools that 
they can use. Where we think more in terms of a nuclear 
threshold, they see it as another logical step.
    Senator Peters. Thank you, gentlemen.
    Senator Reed [presiding]. On behalf of Chairman McCain, let 
me recognize Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    I want to thank you, gentlemen, for not only your testimony 
today but your decades of public service, which I have had the 
opportunity to witness for a number of years. So it really has 
been exceptional. So I just want to commend you for that and 
your families, by the way.
    Would you agree that one of the most strategically 
important advantages we have right now as the United States and 
have had really for generations is that we are an ally-rich 
nation and our adversaries or potential adversaries, Russia, 
China, Iran, North Korea, are ally-poor? Would you agree that 
that is a key strategic advantage the United States has?
    Ambassador Burns. Absolutely. I think it is among our 
greatest advantages and has been for decades.
    Senator Sullivan. So you look at, like I mentioned, the 
Russians, the Chinese, the North Koreans, Iranians. Nobody 
wants to be on their team. Nobody is clamoring to be part of 
the--as matter of fact, they all look to be alliances with 
themselves just because they have so few other countries that 
are interested in actually teaming up with them.
    So is it also true that Russia--I know is the focus of this 
hearing--but also China see as one of their goals to undermine 
these alliances, split us apart from our key long-term allies?
    Ambassador Burns. Absolutely.
    Senator Sullivan. So I know it is early days in the Trump 
administration. I think we have a lot of cabinet members who 
understand this, but what do you think the Trump administration 
is doing right to strengthen alliances and push back on Russian 
attempts to undermine them, and where can they improve? I will 
open it up for all three of you gentlemen.
    Ambassador Vershbow. Well, Senator, first I would agree 
that we are very much advantaged by having networks of 
alliances in Europe and other parts of the world. The Russians, 
in particular, seem to alienate their neighbors. The only way 
they feel they can keep their neighbors under control is by 
keeping them weak and unstable. So that means in the long term 
that is a very unsustainable way to build relationships. So I 
think we have a natural advantage and we should not psych 
ourselves out.
    But it is a little early to make----
    Senator Sullivan. No. It is very early.
    Ambassador Vershbow.--broad judgments about the new 
administration, but after some question marks that were raised 
about whether NATO is obsolete in the mind of President Trump, 
they have, I think, reassured allies that they still value 
NATO, value the transatlantic relationship, recognize that 
allies are contributing in Afghanistan and other operations.
    But I think the jury is still out as to what kind of agenda 
will the Trump administration lay out for NATO. Where does it 
want NATO to evolve and take on new missions, new roles? I 
think there is more we could ask our allies to do through NATO, 
not just spending more money but doing more things to deal with 
the root causes of terrorism, of migration. So I look forward 
to what that agenda is.
    I think sending messages to our east Asian allies. The 
Mattis trip, now the Tillerson trip I think have been very 
clear that those alliances with Korea and Japan will remain 
high priorities.
    Senator Sullivan. Thank you, Ambassador.
    Any other? General Breedlove, Ambassador Burns, what they 
can be doing better, what they are doing well now? It is a 
really important issue. Right? It is the key strategic issue. 
We have this great advantage. We need to double down on it not 
undermine it ourselves.
    Ambassador Burns. We do, and I think the honest answer is 
there is a lot of uncertainty right now on the part of our 
allies, notwithstanding the efforts of a number of the new 
cabinet principals to emphasize the commitment, but there is 
uncertainty, given things that were said during the campaign by 
President Trump and some of the signals coming out of the White 
House since then. It is really important I think to reassure 
our allies and partners. There are some good opportunities in 
the next few months with meetings in Europe.
    Senator Sullivan. We can do that as well here. Right? At 
the U.S. Senate.
    Ambassador Burns. Absolutely, and I think the more that can 
be done like at the Munich security conference and other 
places, the better.
    Senator Sullivan. Let me ask another question, just 
switching gears here, on the Arctic. You know, General 
Breedlove, you were very aware and watched as the Russians 
engage in this massive military buildup in the Arctic. Many of 
us I think in a bipartisan way on this committee certainly were 
concerned that we did not have a strategy. We put in a 
provision in the NDAA two years ago to actually have a 
strategy. It is a little better than the lack of one that we 
previously had. We really did not have one.
    General Mattis, in his confirmation hearing, has talked 
about the Arctic being key, strategic terrain, sea lanes, 
resources, and that Russia is aggressively taking action. In 
the new strategy, it talks about the importance of protecting 
sea lanes, resources through freedom of navigation operations, 
kind of like we have done in the South China Sea although not 
nearly enough.
    General Breedlove, can you comment on this? More 
specifically, if Russia decided to deny access to vital United 
States resources in the region or international sea lanes, 
shipping lanes in the Arctic, do we have any capability 
whatsoever to conduct a surface FONOP [Freedom of Navigation 
Exercises] to challenge that? What should we be doing about 
that?
    General Breedlove. Senator, thank you. I understand the 
question. Let me just reframe a minute.
    We ought to try to make the Arctic an opportunity. We are 
early in this conversation. We ought to make it an opportunity 
and not a place of competition. But we need to, with a very 
wary eye, look at the actions that you have mentioned that 
Russia is taking in the north. Our abilities as are other 
nations' and, frankly, Russia's abilities to operate in the 
north are still challenging. This is a tough place to be. But 
what we do see as a Russia moving out to establish capability 
there--that could be used appropriately or nefariously. I 
believe this and I have spoken before that we need to look at 
our capabilities. Are they deep? Do we have the right ones? I 
think there is work to be done there.
    Senator Sullivan. Can we conduct a FONOP there? Is the 
answer not no? It is not even close.
    General Breedlove. If I understand, I think we can but 
realizing that we would have to be there at the right time of 
the year and the right time of conditions. We do not have some 
of the capabilities we need to operate up there when the ice is 
challenging.
    Senator Sullivan. Thank you.
    Chairman McCain [presiding]. Senator King?
    Senator King. Thank you, Mr. Chairman.
    General Breedlove, in your testimony, you touched upon a 
question that I think is of surpassing importance in the 
situation that we are in now. This discussion today has been 
about high-level strategy and deployment and those kinds of 
things. You mentioned the danger of confusion, 
misunderstanding, and accidental war. I think one of the most 
profound books about foreign policy, which I recently reread, 
is ``The Guns of August.'' We stumbled into World War I. I 
think every policymaker should read that book. It is eerily 
prescient of the situation we are in now.
    Number one--and Senator Cotton mentioned this--it seems to 
me that given the danger of a Russian pilot inadvertently 
hitting a ship instead of buzzing it or a Chinese pilot in the 
South China Sea doing the same and the escalation from there, 
to me that cries out for better communication and open lines. 
My understanding is that that has somewhat diminished both on 
the military-to-military level and at the highest level. Your 
thoughts? Any of you? General Breedlove?
    General Breedlove. May I modify the scenario and tell you 
what worries me? I really believe the pilots are good enough 
not to hit one of our aircraft. I am often asked about this 
scenario. What worries me and what worries others are in one of 
these fly-bys, if the Russian aircraft just simply has a 
mechanical malfunction and hits the water, what is going to 
happen? Are we going to be blamed? Will be used as a simple 
tool to create a catastrophe, et cetera, et cetera? Frankly, 
our Aegis cruisers and destroyers are very capable of defending 
themselves against Russian aircraft. I do not worry about that 
piece. But I worry about the accident that then escalates into 
something wholly unintended.
    Senator King. Exactly. Is it not critical in that piece to 
have open lines of communications?
    General Breedlove. Sir, we do have some but they are not 
adequate. We still have what we call INCSEA, incidents at sea, 
which actually have expanded to incidents at sea, land, and air 
in some of those conversations. We have mechanisms, but I 
believe we need to be more aggressive about those conversations 
so we do not stumble.
    Senator King. Let me turn it just slightly. One of the 
problems is that what we view as defensive, the other side can 
view as provocative, and how you hit the right point--in other 
words, stationing troops in Poland, moving equipment into 
preposition in Eastern Europe. We view that as defensive. Is it 
possible that that could lead to an escalation if the Russians 
view that as an aggressive act? I am trying to think through 
the scenarios here that could lead to a dangerous result.
    Ambassador Burns, your thoughts.
    Ambassador Burns. I think your question is a very important 
one, Senator. I think there is a real risk in letting channels 
of communication atrophy. They are not a favor to the Russians 
to be able to communicate at all sorts of different levels, 
whether it is military-to-military, as General Breedlove 
described, or at diplomatic levels or at higher levels as well. 
I think there is a cold-blooded self-interest in trying to 
ensure that we understand one another clearly. It does not mean 
that we are going to overcome Russian concerns about what they 
might see to be the aggressive intent of some of our 
deployments. But at least I think we will have a little bit 
clearer understanding and we will be able to avoid some of what 
could be inadvertent collisions, whether physical or political.
    Senator King. Let me talk a bit about what I call the cheap 
war, the war that has been waged over the last several years, 
the last election here, now in France, now in Germany. I did a 
quick calculation. For the price of one F-35, the Russians can 
deploy 4,000 hackers and trolls, and they have been remarkably 
successful at a very low price.
    Ambassador Vershbow, your thoughts about what I consider 
really a new form of warfare that is unfolding in front of our 
eyes.
    Ambassador Vershbow. I absolutely agree. I call it 
political aggression rather than military aggression against 
our societies, and it is a lot cheaper than waging war. They 
probably could buy more than 4,000 hackers with the price of an 
F-35. So we cannot sort of count on the Russians depleting 
their resources through their aggressive behavior the way they 
did in the Cold War.
    Senator King. The arms race economics does not work in this 
situation.
    Ambassador Vershbow. No. We need, first of all, to make 
sure that we can deny them the ability to do it as effectively 
as they did during our election in terms of hardening our 
systems, being more vigilant about fake news, taking down the 
false stories quickly before they go viral.
    Senator King. But all of those are defensive. I am running 
out of time, but we need a cyber doctrine in connection with 
our Western allies that involves an offensive capability as 
well, do we not?
    Ambassador Vershbow. Well, we may not want to do an exact 
tit for tat in this field, but it would be more aggressive than 
pushing our values, pushing our narrative because Putin is 
worried about a democratic alternative gaining ground again in 
Russia. I do not think we should give up on our support for 
civil society, for independent media, supporting emigre media 
sites that try to push objective information into Russia, this 
new current time channel that the Broadcasting Board of 
Governors is launching to affect the opinions of Russian 
speakers both in Russia and on the borderlands. All these 
things are very important to show that we are not going to fail 
to compete in this political battle.
    Senator King. Thank you. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    Thanks to all the witnesses for your testimony.
    Beginning in 2015, General Dunford, as the head of the 
Joint Chiefs, in appearances before this committee started to 
say and he said on multiple occasions now that among nation-
states in the world, Russia is our biggest--he has used the 
phrase ``adversary,'' ``headache,'' ``what keeps him up at 
night,'' ``threat'' in terms of its military, both capacity and 
intent to use its power.
    Did any of you disagree with that conclusion?
    General Breedlove. I certainly do not, and it has been my 
testimony in front of this committee before.
    Ambassador Burns. No. I think Russia has demonstrated since 
2015 it is a pretty big headache. I mean, we have got no 
shortage of other headaches in the world, but it has lived up 
to that form.
    Senator Kaine. Ambassador?
    Ambassador Vershbow. I agree as well. Its ability to kind 
of overturn the whole international order puts it in a class by 
itself in terms of the nature of the threat.
    Senator Kaine. Are any of you aware in the world right now 
of a nation-state that is doing more to destabilize and 
interfere with other nations' internal political affairs than 
Russia? No?
    Given Russian physical presence in Georgia and the Ukraine, 
are you aware of any other nation in the world right now that 
has been more willing to incur into the physical sovereignty of 
another nation? Is there a bigger violator of incursions into 
physical sovereignty in the world right now than Russia? No.
    With respect to the election issue, I was in Europe 
recently and was asked a series of kind of challenging 
questions along this line, and I would like your thoughts on 
it. If the U.S. will not act to defend itself from an election 
cyber attack, we know you will not act to defend us. There was 
a great deal of skepticism about what the U.S. would do to help 
any other nation under a similar threat because of a perception 
that we did not act in real time to stop a cyber attack of our 
election. As of yet, there has been no particular consequence 
of it. Do you think that would be a reasonable concern that 
others would have if they do not see us acting to protect 
ourselves, that they would be deeply skeptical that we would 
act to protect them?
    Ambassador Burns. I do, Senator. I mean, in the face of 
what has been a truly serious assault on our democratic system, 
I think it is absolutely essential that we not only recognize 
the severity of the problem but respond to it with the fullest 
possible investigation and then work with our allies, having 
demonstrated our own realization of the concern, to help them 
strengthen their defenses as well.
    Senator Kaine. Finally, here is a question that I want to 
ask you that is really about sort of the psychology of dealing 
with Russia because I have a much higher confidence in my own 
opinions about our actions in other parts of the world, the 
Middle East and Arab North Africa, Latin America, and not so 
much about Russia.
    There are currently some discussions about possibly 
engaging in greater oil diplomacy with Russia. So the sanctions 
after Ukraine, for example, have limited joint ventures between 
American companies and Russia on oil issues. But there are some 
questions about whether we should potentially do that in the 
Arctic or elsewhere, should we not allow joint ventures and 
cooperation with Russia that we are not currently doing.
    If we were to do that, tell me what your opinion would be. 
Would that make Russia like the United States better, or would 
they simply use any additional assets that they get from that 
to continue on the path they are on, including the common path 
of companies that are resource-rich? Those resources often 
deepen corruption, deepen oligarchy rather than really help 
domestic economic satisfaction.
    Ambassador Burns. I will start, Senator. No. I think in my 
experience, the Russians unsentimental about issues like this. 
So it is not necessarily going to make the current Russia 
regime like the United States more. I think it is really 
important, as Ambassador Vershbow said before, to sustain the 
sanctions which restrict a lot of those activities until we see 
full implementation of the Minsk Agreement because I do think 
movement on Ukraine is really crucial here.
    Ambassador Vershbow. I agree with that. The Russians will 
still pursue their interests very aggressively and using energy 
as a leverage. But those are among the most important sanctions 
imposed after the aggression against Ukraine. So they should be 
kept in place until we see real change on the ground. But then 
when conditions are met, we should lift them, but there is a 
long way to go before the Russians convince me that they are 
going to restore sovereignty in Ukraine.
    Senator Kaine. General Breedlove?
    General Breedlove. Real change needs to be evident. 
Reestablishing trust--we have none now. I think those are key.
    Senator Kaine. Thank you,
    Thanks, Mr. Chair.
    Chairman McCain. I thank the witnesses for their testimony 
today.
    Oh, Senator Shaheen, I apologize.
    Senator Shaheen. Thank you, Mr. Chairman. I just have one 
more question, and this is probably for all of you or whoever 
would like to answer.
    Everyone I think has alluded to Russia's propaganda 
efforts, the amount of money they are spending on RT [Russia 
Today], on Sputnik, on other media outlets. It is something 
that I have been concerned about and actually filed legislation 
that would change the way FARA [Foreign Agents Registration 
Act] operates to look at whether they are trying to circumvent 
our legislation and not registering. I think probably I hit a 
nerve because there has been an interesting response in Russia 
to that legislation.
    But can you talk about how much we should be concerned 
about this propaganda arm? I was interested, Ambassador 
Vershbow, in your suggestion that NATO ought to be looking at 
responding to some of the Russian propaganda in a different 
way. So how much of a piece of what Russia is trying to do is 
this, and what should we be doing in response to it?
    General Breedlove. I will start with just a short remark. I 
think it was surprising to me how little the Western world 
talked about what quietly happened here about ten days ago 
where Russia established an information warfare division of 
their military and beginning to funnel an even more military 
approach to how they do this. While it is a cheap war--we used 
those words earlier--they are putting a lot of money into this. 
Senator, I think this is something we need to be very attentive 
to.
    I agree with something that was said earlier. We cannot go 
tit for tat. Right after the MH-17 shoot-down, they put four 
stories out on the street within two news cycle that it took us 
two years to debunk. We cannot respond tit for tat. What we 
need to do is get our troops, our values, and our lines out 
there in an aggressive way so that the world can see the other 
side of the story.
    I am sorry for taking your time.
    Senator Shaheen. No. Thank you.
    Ambassador Burns, do you have anything to add to that?
    Ambassador Burns. No. I absolutely agree, and I think 
working with our NATO and EU partners is absolutely essential. 
We have a much stronger voice when we are part of a chorus on 
these issues than when we are doing it solo.
    Senator Shaheen. Ambassador Vershbow?
    Ambassador Vershbow. I agree with my colleagues. I think we 
should not overestimate the audience that RT really has, but I 
am more worried about the ability to manipulate social media 
with trolls, with bots, and getting these fake stories into 
millions of people's inboxes before we even know what is going 
on. At the same time, we have to stay consistent with our own 
values about free speech and diversity of opinion in the media, 
but call them out on shoddy journalistic standards, 
manipulation of truth into fake news. If there are legal 
issues, I am not competent to evaluate whether they are 
skirting the Foreign Agent Registration Act, but we should look 
closely at that because it is, as we all know, an arm of the 
Russian Government de facto if not de jure.
    But the allies and our European Union partners are in some 
ways more vulnerable to all this with Russian minorities in 
many countries, traditional sympathies towards Russia, 
inclining people to look to Russian media rather than to the 
BBC [British Broadcasting Corporation] or other sources. So it 
is a collective challenge, and I think working with our allies 
and partners, we can better meet that challenge.
    Senator Shaheen. I certainly agree. It is something I have 
heard everywhere I have been in Eastern Europe, concern about 
that kind of propaganda. So thank you all very much.
    Chairman McCain. I thank the witnesses for their testimony 
today and for their years of outstanding service to our Nation.
    Senator Reed?
    Senator Reed. Just a brief comment. We have talked about 
the doctrine of escalate to deescalate. It seems to me to be 
not only irrational but insane. You typically escalate in 
response to your opponent to defeat them, though escalate not 
to deescalate but escalate to defeat might be the real reality. 
I just wanted to make that point. I see heads nodding. I do not 
need a response, but I think there is agreement.
    Chairman McCain. The hearing is adjourned.
    [Whereupon, at 11:25 a.m., the hearing was adjourned.]

                                 [all]



</pre></body></html>
